• •

No.
SUPREME COURT OF THE UNITED STATES
Case: Lucio A. Barroga V. Board Of Admiistration
California Public Employees
Retirement System (PERS)

APPENDIX

LUCIO A. BARROGA
P.O. BOX 2516
LONG BEACH, CA 90801
TEL 562-560-7863

SUPREME COURT OF THE UNITED STATES
APPENDIX
LIST OF ACTIONS
Barroga V. Board of Adminisration, PERS
1) May 22, 2019 (19-CV-00921) COMPLAINT FOR DECLARATORY RELIEF UNDER
CODE Of CIVIL PROC. SEC. 1062 ON NEW OR SAME ACTION BASED ON THE SAME
FACTS WHICH OVERCOMES RES JUDICATA in Sacramento, U.S. District Court.
FACTS p.3-4
After reaching 50 year old in April 1979 and retirable, I submitted an
PERS offered me two choices: 1) to
application for retirement pensions,
receive a monthly pension of $135, or 2) as alternative, to receive a lump
sum of my member contributions (approx. 7% of salaries), but the
employer's contributions on my behalf (approx. 7.75% of salaries under
Gov't Code Sec. 20750.1 [new 20795]), will remain with PERS. I received
approximately $10,000 of my accumulated member contributions, with the
employer's contributions on my behalf remaining in deposit with PERS.
Later in some years, I requested that the offered monthly pension shall
pay and redeposit for the withdrawn member contributions as a loan . PERS
I have contended that I am still a
claimed I ceased to be a member..
PERS member, because the employer's contributions on my behalf have
remained in deposit with PERS and are "normal contributions".
ISSUES OR CAUSES OF ACTION p.4-6
Proof that I am still a PERS member: 'A person ceases to be a member:
(b) if he or she is paid his or her "normal contributions".
The employer's contributions was not paid and remain in deposit with PERS.
ISSUE I: ARE THE EMPLOYERS' CONTRIBUTIONS TO THE RETIREMENT FUND
IN BEHALF OF MEMBERS, "NORMAL CONTRIBUTIONS" UNDER THE STATUTE,
(CAL) GOV'T CODE SEC. 20691?
(Cal) Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer.
Notwithstanding any other provision of law, a contracting agency or schoo
employer may pay all or a portion of the normal contributions required to be
paid by a member. The payment shall be reported simply as normal
/

contributions and shall be credited to member accounts. .
The employer's contributions are explicit "normal contributions ,
therefore I am still a PERS member entitled retirement benefits.
ISSUE II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF THE
ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF
LIFETIME RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALFIED FOR,
RETIREMENT AFTER REACHING 50 YEARS OLD, A VIOLATION OF (CAL) GOV'T
CODE SEC. 21203 (NEW 21259)?
(Cal) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification
for retirement
Subject to compliance with this part, after a member has qualified as to .
.age and service for retirement for service, nothing shall deprive him or
her of the right to retirement allowance as determined under this part.
ISSUE III: IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN MEMBER
CONTRIBUTIONS AS LOANS A VIOLATION OF PERS'S LOAN LAWS WHICH
ALLOW WITHDRAWALS AS LOANS? OR DISCRIMINATORY?
(Cal) Gov't Code Sec. 20654 (new 20750) Redeposit of withdrawals,
interest..
. .member may file an election with the board to redeposit in the
retirement fund, in lump sum or by installment payment (1) an amount
equal to the accumulated contributions., .withdrawn, and (2) an amount
equal to the interest..
(Cal) Gov't Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program.
ISSUE IV: CONSTITUTION, AMENDMENT 13 IS VIOLATED. PERS HAS DENIED
PLAINTIFF RETIREMENT BENEFITS DERIVED FROM THE EMPLOYER'S
CONTRIBUTIONS TO THE RETIREMENT FUND ON MY BAHALF, WHICH
EMPLOYER'S CONTRIBUTIONS I HAD WORKED AND TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude ..
.shall exist within the United States,..
ISSUE V: CALIFORNIA CONSTITUTION PREVAILS OVER 11™ AMENDMENT
IMMUNITY

U

California Constitution Article 3, Sec. 6 (d)
(d) Personal Right of Action and Jurisdiction of Courts.
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section,.
2) Jun. 22, 2019 (19-CV-00921) DEFENDANT'S MOTION TO DISMISS
2 Reasons: p.i Eleventh Amendment Immunity; p.i Claim and Issue
Preclusion and Res Judicata
3) Aug. 1, 2019 (19-CV-00921) OBJECTION TO DEFENDANT'S MOTION TO
DISMISS,
p.5-6 Cal Constitution Article 3, Sec. 6(d) providing "Any .Calif., resident...
shall have standing to sue . .California" prevails over 11* Amendment
immunity; p.6 Answering Claim and Issue preclusion: On Defendant Status
of Sept. 27, 2012, p.3 PERS wanted settlement, but attorney did not
respond for request for settlement. (See also letter dated Apr. 18,1996
from Richard Koppes, Deputy Executive Officer and General Counsel).
Answering res judicata: p.7-9 The ISSUES .. have NOT been interpreted and
determined, so there is no basis for charge of res judicata.
4) 9-9-19 (19- CV- 00921) FINDINGS AND RECOMMENDTIONS TO DISMISS., by
Magistrate Judge Newman, Recommended:
p.3 (dismissal) as in llthAmendment immunity of 2012 action .
p.3 Barroga deemed vexatious litigant,
5) 9-20-19 (19-CV-00921) OBJECTION TO . .FINDINGS AND RECOMMENDATIONS,
Answering: p.2-3 California Constitution Article 3. Sec. 6(d). .Prevails Over
Eleventh Amendment Immunity . .Of The Order of Dec. 19, 2012
p.4 Refusing To Determine And Interpret The Issues And Controvercies
Before Charging Vexatious Litigant Is Plain Obstruction Of Justice,
6) 9-30-19 (19-CV-00921) ORDER, adopted Findings and Recommendations
Notice: ORDER dismissed, violating laws, did not interpret and determine ISSUES.
7) 10-22-19, 2-8-20 (19-17418) (in US Court of Appeals for 9th Circuit) MOTION
FOR RELIEF FROM ORDER OF SEPT. 30, 2019 with
p.1-2 FACTS and p.2-5 ISSUES I, II, III, IV, V Cal Constitution Article 3, Sec 3d

5

p.ll PERS in violation of Fifth Amendment. .without due process of law;
p.12 From .litigant law, because the ISSUES I, II, III, IV ..and Cal Constitution
Article 3, Sec 6(d) were never determined and interpreted . .as basis,
therefore,... the charge of vexatious litigant is false and wrong.
8) 5-29-20 (19-17418) APPELLEE'S BRIEF, with 3 ISSUES PRESENTED
p.3 1. Whether. ..PERS is entitled to Eleventh Amendment Immunity
2 Whether.. .Barroga's claim are barred by res judicata
3. Whether... Barroga is a vexatious litigant
9) 6-11-20 (19-17418) OBJECTION TO APPELLEE'S BRIEF OF MAY 29, 2020
Answering the 3 ISSUES PRESENTED
1. p.5 California Constitution Article 3, Sec. 6(d). provides, .resident. ,have
.standing to sue .. California"prevails over Eleventh Amendment Immunity.
2. p.6 The courts refused to interpret the.. ISSUES I, II, III, IV, and Cal
Constitution Article 3, Sec.6(d), therefore there is no basis to.. res judicata.
3. p.7-8 .. because the ISSUES .. were never determined and interpreted..
.. as basis, the charge of vexatious litigant is false and wrong.
10) Feb. 23, 21 (19-17418) MEMORANDUM , AFFIRMED , U.S. 9th Circuit
p.2 (a) dismissed., action., on the basis of claim preclusion because the
action involved the same primary rights raised in prior administrative
proceeding or state court case that resulted In a final judgment
p.2 (b).. The district court did not abuse its discretion for declaring Barroga
a vexatious litigant.
11) 3-5-21(19-17418) PETITION FOR REHEARING UNDER FRAP 40
The MEMORANDUM is wrong, did not comply to laws, violated laws:
p.l 5 U.S. Code Sec. 706 Scope of review
.. .the reviewing court shall decide all relevant questions of law, interpret
constitutional and statutory provisions, (MEMORANDUM did not comply.)
p.8 Code of Conduct for U.S. Judges
Canon 2 (A) Respect for Low. A judge should respect and comply with.. law
p. 5 The MEMORANDUM regarding claim preclusion, overlooked ..that.
prior administrative judge and state judges were wrong in deciding that I
ceased to be a member when I withdraw the . .member contributions.

4-

Notice: In ISSUE I, I am still a member of PERS because the employers'
contributions on my behalf remain with PERS. See ISSUE I.
7-8 The MEMORANDUM overlooked the fact that plaintiff is not a vexatious
litigant, under. .Cal Code of Civil Proc. Sec. 391.
The . .litigant law requires that issues must be first addressed and finally
determined, but judges refused to interpret the laws in dispute, so there is
no basis for charge of vexatious litigant.
12) 5-26-21(19-17418) ORDER by panel denying petition of rehearing . U.S. 9th
Circuit Court of Appeals
MISCELLANEOUS (MS);
Apr. 18,1996 Letter of Richard Koppes, Deputy Executive Officer and General
Counsel argued that the employers' contributions are not "normal contributions
which is wrong. Please see ISSUE I on TABLE OF AUTHORITY
Sept. 27, 2012 Defendant's STATUS REPORT p.3 wanted settlement, but attorney
did not respond for request of settlement on my letters to Atty. General Kamela
Harris on Nov. 26, 2012 and Atty. General Xavier Becerra on^ug,14^2017^
Date: July '2^4., 2021

Respectfully submitted:

<xnp 0^

fciGTA.'B’arroga

LUCIO A. BARROGA, PRO SE
P.O. BOX 2516
LONG BEACH, CA 90801
Tel 562 -243-1024

MM 2 2 2019

n&,

^-----^3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
LUCIO A. BARROGA,

! CASE NO.

9:\Dtel TLN BHg

Plaintiff

! COMPLAINT FOR DECLARATORY
V.
! RELIEF UNDER CAL CODE OF CIVIL
! PROC. SEC. 1062 ON NEW OR SAME'
BOARD OF ADMINISTRATION, ! ACTION BASED ON THE SAME FACTS
CAL PUBLIC EMPLOYEES’
I WHICH OVERCOMES RES JUDICATA.
RETIREMENT SYSEM (PERS),
!.
i
Defendant(s)
MEMORANDUM OF POINTS AND AUTHORITIES
THE U.S. DISTRICT COURT HAS JURISDICTION UNDER:
A) Violation of Constitution, Amendment 13, prohibition of slavery. ISSUE IV,
for Defendant PERS denying me benefits derived from the employer’s
contributions on my behalf which I had worked and toiled for.
B) Statute of limitation shall not apply, Cal Gov’t Code Sec. 2G181(new
20164) see AUTHORITIES on p.6C, is quoted:.
Duration of obligation; limitation of actions
(b)(2) In cases where the system owes money to a member or beneficiary, .
the period of limitation shall not apply.
C) U.SCA. Constitution Amendment 14 Sec. 1 Supporting precedents:
/

357

ps

•c

•c:

a) State action, for purpose of this clause, may emanate from rulings of
administrative and regulatory agencies as well as from legislative or judicial
actions. Moose Lodge No 107 v. Irvis , Pa. 1972, 92 S.Ct. 1965, 407 US 163
b) State has obligation to insure that actions of its agencies do not deprive
any person of equal protection of laws. U.S. v. State of Tex. 1970, 321 F.
Supp. 1043, 92 S. Ct. 675, 404 U.S. 1016, 30 L.Ed. 2d 663.
c) The action of state courts and judicial officers in their official capacities
is to be regarded as action of state within this amendment. Shelly v.
Kraemer, Mich. & Mo. 1948, 68 S.Ct. 836, 334 U.S. 1, 912 L.Ed. 1116.
E) State judges are members of PERS, even the Hon. U.S. District Court
Judge Florence -Marie Cooper recused herself on this case, because she was a
“participant of CalPERS”. EXHIBIT 21A. Also, see Notice on EXHIBIT 8,
Superior Court Judge McVittie gave judgment not consistent with the law, and said
"you know how to appeal.."
F) Defendant PERS wants settlement Sept 27,2012 EXHIBIT 152 Defendant’s
p.3 PERS STATUS REPORT, to quote:
13. CalPERS prefers to have a settlement conference conducted by someone
other than the district court judge and the magistrate judge assigned to this
matter.
G) California CONSTITUTION Article 3, Sec. 6(d), provides any resident
can sue the state, so there is no immunity, the reason of dismissal on judgment of
Dec. 19, 2012 , also on p.10, to quote:
d) Personal Right of Action and Jurisdiction of Courts.
%

Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section,
H) 28 USC § 1331. Federal question
The district courts shall have original jurisdiction of all civil actions arising
under the Constitution, laws, or treaties of the United States
Note: The issues in the complaint - ISSUES I, II, III, & IV are new and never
determined by any court, The December 19,2012 judgment had been immunity.
G) Cal Code of Civ. Proc. Sec. 657 Relief available on motion for new trial,
causes..
4. Newly discovered evidence, material for the party making the
application, which he could not, with reasonable diligence, have discovered
and produced at the trial. (Calif Constitution Article 3, Sec 6(d), see above).
6. Insufficiency of evidence to justify the.. decision, or the decision is
against the law.
FACTS
After reaching 50 year old in April 1979 and retirable, I submitted an
application for retirement pensions from previous services with the City of El
Segundo, and later I went to Sacramento PERS office to follow up application.
PERS offered me two choices: 1) to receive a monthly pension of $135, or 2) as
alternative, to receive a lump sum of my member contributions (approx. 7% of
salaries), but the employer’s contributions on my behalf (approx. 7.75% of salaries
under Gov’t Code Sec. 20750.1 [new 20795]), will remain with PERS. I received
approximately $10,000 of my accumulated member contributions, with the
employer’s contributions on my behalf remaining in deposit with PERS.
Later in some years, I requested that the offered monthly pension shall pay

3

and redeposit for the withdrawn member contributions as a loan which PERS
maliciously omitted to inform the monthly pension can redeposit per statute (Cal)
Gov’t Code Sec. 20654 (new 20750) Redeposit of Withdrawals, and when the loan
or withdrawal is fully paid with interest, then monthly pension will start to me. But
PERS claimed the employer’s contributions which have remained with PERS are
NOT “normal contributions”, therefore I ceased to be a member when the member
contributions were withdrawn, and I am not anymore entitled any pension benefits.
I have contended that I am still a PERS member, because the employer’s
contributions on my behalf have remained in deposit with PERS and are “normal
contributions” under the laws, and therefore, I am entitled retirement benefits..
ISSUES OR CAUSES OF ACTION
Proof that I am still a PERS member, because the employer’s contributions on
my behalf have remained in deposit with PERS, to quote:
(Cal) Gov’t Code Sec. 20390 (new 20340) Condition of cessation
A person ceases to be a member:
(b) if he or she is paid his or her “normal contributions”.
Therefore, IF the employer’s contributions which have remained in deposit
with PERS are “normal contributions”, then I am still a PERS member.
ISSUE I: ARE THE EMPLOYERS’ CONTRIBUTIONS TO THE
RETIREMENT FUND ON BEHALF OF MEMBERS, “NORMAL
CONTRIBUTIONS” UNDER THE NEW DISCOVERED STATUTE, (CAL)
GOV’T CODE SEC. 20691? (New Issue, different from prior Issues)
(Cal) Gov’t Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer

4-

\

Notwithstanding any other provision of law, a contracting agency or
school employer may pay all or a portion of the normal contributions
required to be paid by a member. The payment shall be reported simply as
normal contributions and shall be credited to member accounts.
The employer’s contributions are explicit “normal contributions”, therefore I
am still a PERS member, entitled retirement benefits.

ISSUE II: IS PERS’S ALTERNATIVE OFFER FOR THE WITHDRAWAL
OF THE ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE
PLAINTIFF OF LIFETIME RETIREMENT ALLOWANCE AFTER PLAINTIFF
HAD QUALFIED FOR RETIREMENT AFTER REACHING 50 YEARS OLD, A
VIOLATION OF (CAL) GOV’T CODE SEC. 21203 (NEW 21259)?
(Cal) Gov’t Code Sec. 21203 (new 21259) Nonforfeiture after qualification
for retirement
Subject to compliance with this part, after a member has qualified as to .
.age and service for retirement for service, nothing shall deprive him or her
of the right to retirement allowance as determined under this part.

ISSUE III: IS PERS’S DENIAL FOR CONSIDERING THE WITHDRAWN
MEMBER CONTRIBUTIONS AS LOANS A VIOLATION OF PERS’S LOAN
LAWS WHICH ALLOW WITHDRAWALS AS LOANS? OR
DISCRIMINATORY?
(Cal) Gov’t Code Sec. 20654 (new 20750) Redeposit of withdrawals,
interest..
. .member may file an election with the board to redeposit in the
retirement fund, in lump sum or by installment payment (1) an amount
equal to the accumulated contributions., .withdrawn, and (2) an amount

equal to the interest. .,and (3) if he or she elects to redeposit in other than
one sum, interest on the unpaid balance at date of election to redeposit.
(Cal) Gov’t Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov’t Code Sec. 20208.5 (new 20203) Security loan.
(Cal) Gov’t Code Sec. 20215 (new 20200) Home financing program.
(Cal) Gov’t Code Sec. 20201 Secured home loan.
ISSUE IV: AMENDMENT 13, PROHIBITION OF SLAVERY, IS VIOLATED.
PERS HAS DENIED PLAINTIFF RETIREMENT BENEFITS DERIVED FROM
THE EMPLOYER’S CONTRIBUTIONS TO THE RETIREMENT FUND ON MY
BAHALF, WHICH EMPLOYER’S CONTRIBUTIONS I HAD WORKED AND
TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude ..
.shall exist within the United States,..
If any of the ISSUES is YES, in fact, all are yes, then I am entitled retirement
benefits and the redeposit of the withdrawn member contributions.
Note: ISSUE I, ISSUE II, ISSUE III, and ISSUE IV are new and have no prior
determination or judgment from any court.
TABLE OF OTHER CITED AUTHORITIES
RETIREMENT ALLOWANCE STATUTE BUT WHICH PERS DISOBEYTED
(Cal) Gov’t Code Sec. 20393 (new 20731). .retirement allowance..
After qualification of the member for retirement by reason of age,.. the
member shall be entitled to receive a retirement allowance based upon the
amount of members accumulated contributions and service ,. .and on the
employer’s contributions held for the member and calculated in the same
manner as for the other members ...

6

STATUTE OF LIMITATION DOES NOT APPLY
(Cal) Gov’t Code Sec. 20181 (new 20164) Duration of obligation;
limitation of actions
(b)(2) In cases where the system owes money to a member or beneficiary,
the period of limitation shall not apply.
MEMBER
(Cal) Gov’t Code Sec. 20013 (new 20370) Member . ,
“Member” means an employee who has qualified for membership in this
system and on whose behalf an employer has become obligated to pay
contributions.
RES JUDICATA DOES NOT APPLY UNDER DECLARATORY RELIEF LAW
(Cal) Code of Civil Proc. Sec. 1062 Cumulative remedy
The remedies provided by this chapter are cumulative, and shall not be
construed as restricting any remedy, provisional or otherwise, provided by
law for the benefit of any party to such action, and no judgment under this
chapter shall preclude any party from obtaining additional relief based upon
the same facts.
RELIEF AVAILABLE ON MOTION FOR NEW TRIAL
(Cal) Code of Civil Proc. Sec. 657 Relief available on motion for new
trial, causes..:
4. Newly discovered evidence, material for the party making the
application, which he could not, with reasonable diligence, have
discovered and produced at the trial.
6. Insufficiency of evidence to justify the.. decision, or the decision is

7

#

against the law.
EXPLICIT “NORMAL CONTRIBUTIONS", BUT THE COURT SAID IT IS
NOT, AND WRONGLY USED AS BASIS FOR RES JUDICATA (Former ISSUE)
(Cal) Gov’t Sec 20027 (new 20053) Normal contributions
(2nd Part) “Normal contributions” also include contributions required to be
paid by a member that are in fact paid on behalf of member by an employer
as defined in Sec. 20011 (new 20030) (In EXHIBITS 6, 17, 21, 29)
BEING CALLED A VEXATIOUS LITIGANT IS WRONG BECAUSE THE
ISSUES - ISSUE I, II, III, & IV IN THE COMPLAINT ARE NOT FRIVOLOUS,
AND ARE NEW AND NEVER DETERMINED BY ANY COURT, VIOLATING
VEXATIOUS LITIGANT LAW,
Cal Code of Civ. Proc. Sec. 391:
(b) "Vexatious litigant" means a person who does any of the following:
(2) After a litigation has been finally determined against the person,
repeatedly relitigates or attempts to relitigate, in propria persona, either (i)
the validity of the determination against the same defendant.. as to whom
the litigation was finally determined or (ii) the cause of action, claim,
controversy, or any of the issues of fact or law, determined or concluded by
the final determination against the same defendant..
L.R. 7-17 RESUBMISSION Of Motion Previously Acted Upon For Same Relief
If any motion, application or petition has been made to any judge of this
Court and has been denied.. .any subsequent motion for the same relief.
.whether upon the same or any allegedly different state of facts, shall be
presented.. If presented to a different judge, it shall be the duty of the

8

,

•

moving party to file and serve a declaration setting forth the material facts
and circumstances as to each prior motion . . claimed to warrant
relief.(emphasis added.)
DISQUALIFICATION OF JUSTICES, JUDGES, OR MAGISTRATE JUDGES
Title 28 Sec. 455 Disqualification of justices, judges, or magistrate judges
Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned.
RISTRICTION OF PREJUDICIAL JUDGE TO TRY A CASE
Cal Code of Civ. Proc. Sec. 170.6 Prejudice against party , attorney or
interest there of:
(a) (1) No judge,.. shall try any civil or criminal action or special
proceeding of any kind or character nor hear any matter therein that
involves a contested issue of law or fact when it shall be established as
hereinafter provided that the judge.. is prejudiced against any party or
attorney or the interest of any party or attorney appearing in the action or
proceeding.
DISMISSAL ORDERS NOT ‘TILED” ARE INEFFECTIVE AND INVALID
Code of Civil Proc. Sec. 58 Id
AU dismissals ordered by the court shall be in the form of a written order
signed by the court and filed in the action and those orders when so filed
shall constitute judgments and be effective for all purposes, and the clerk
shall note those judgments in the register of actions in the case.
CALIFORNIA CONSTITUTION PROVIDES RESIDENT CAN SUE THE STATE,
AND STATE AGENCIES, AND THEREFORE THERE IS NO IMMUNITY

Cal Constitution Article 3, Sec. 6:
(d) Personal Right of Action and Jurisdiction of Courts.
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section,
FEDERAL RULE OF APPEAL PROC. SEC 60, GROUNDS FOR RELIEF
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial.
(4) the judgment is void;
(d) Other Powers to Grant Relief. This rule does not limit a court’s
power to: (3) set aside a judgment for fraud on the court.
Title 28 Sec 351 COMPLAINT AGAINST JUDGES
(a) Filing of Complaint by Any Person.—
Any person alleging that a judge has engaged in conduct prejudicial to the
effective and expeditious administration of the business of the courts, .
may File with the clerk of the court of appeals for the circuit a written
complaint containing a brief statement of the facts constituting such conduct.
PLAINTIFF, PERMITTED TO CONDUCT HIS CASE PERSONALLY, IS
ACCORDED THE SAME RIGHT AS COUNSEL UNDER TITLE 28 SEC. 1654 ,
THEREFORE RESTRICTING PLAINTIFF TO FILE A COMPLAINT WITH
NEW ISSUES NEVER DETERMINED IS VIOLATION OF THE LAW IN SUCH
NUMEROUS NOTICES AND ORDERS BY CHIEF JUDGE COLLINS, IN
EXHIBITS 44, 48, 54, 66, 72, 75, 77, 90, 92, 94, 97, 100, 108, 110, 114, & 122.
Title 28 Sec. 1654: In all courts of the United States, the parties may plead
and conduct their own cases personally or by counsel as, by the rules of such

lo

court, respectively, are permitted to manage and conduct causes therein.
A JUDGE IS PROHIBITED TO DESIGNATE A MAGISTRATE JUDGE TO
HEAR AND DETERMINE MOTIONS FOR RELIEF AND MOTIONS TO
DISMISS UNDER TITLE 28 SEC. 636 (b)(1)(A):
A judge may designate a magistrate judge to hear and determine any pretrial
matter

i»

except a motion for .. relief, for judgement on the pleadings, for..

judgment. .to dismiss..
A JUDGE HAS DUTY TO DECIDE
Cal Code of Civ. Proc. Sec. 170

decrees that “a judge has the duty to

decide any proceeding in which he or she is not disqualified.”
CONCEALMENT, REMOVAL, MUTILATION GENERALLY UNDER 18 USC
§2071.
(a) Whoever willfully and unlawfully conceals, removes, mutilates,
obliterates, or destroys, or attempts to do so, or, with intent to do so takes
and carries away any record, proceeding, map, book, paper, document, or
other thing, filed or deposited with any clerk or officer of any court of the
United States, or in any public office, or with any judicial or public officer of
the United States, shall be fined under this title or imprisoned not more than
three years, or both.

(b) Whoever, having the custody of any such record, proceeding,., book,
document, paper, or other thing, willfully and unlawfully conceals, removes,
mutilates, obliterates, falsifies, or destroys the same, shall be fined under this
title or imprisoned not more than three years, or both; and shall forfeit his
office and be disqualified from holding any office under the United States.

I!

CODE OF CONDUCT FOR UNITED STATES JUDGES, CANON 2 :
A judge should respect and comply with the law .,
PROCEDURAL BACKGROUND
After a May 3, 1990 administrative hearing (EXHIBIT 7), an administrative
law judge determined on Sept. 21, 1990, “the evidence failed to establish that
respondent is eligible to redeposit his retirement contributions.from Feb. 25,
1998 (B115924) Cal Court of Appeals judgment, p.3 EXHIBIT 9.
1. Feb. 14,1991 case KC03981 EXHIBIT 1, Complaint for Breach of Contract
and Fraud - to correct error or omission under (Cal) Gov’t Code Sec. 20180.
PERS request for judgment on the pleading was initially denied, then after request
for reconsideration, was granted on Oct. 14,1992, EXHIBITS 2, 9.
2. Jan. 25, 1994 case B077855 EXHIBIT 2, Cal Court of Appeals AFFIRMED,
because of untimely filing, but found, “ Appellant makes a valid point in arguing
that plaintiff’s pleading, .as plaintiff states facts entitling him to some type of relief.
.

3. Apr. 12, 1994 case S038365 EXHIBIT 3, Cal Supreme Court, IN BANK

Denied petition for review.
4. Sept. 5, 1995 EXHIBIT 4, In letter, Dep. Gen. Counsel K. Gillan, wanted
the case tried in court, to quote: p.2 “We cannot grant your request.. .We cannot
change this position unless and until we are ordered to do so by a court.. I sincerely
urge you to seek the counsel of an attorney. .
5 Apr. 18, 1996 EXHIBITS 5. In letter, Dep. Exec. Officer and Gen. Counsel
Koppes, supported, Deputy Gen. Counsel Gillan, argued in determining
membership that the employer’s contributions are NOT “normal contributions”. ,p.l.

Yl-

Notice. PERS’s arguments were wrong, because the employer’s
contributions are explicit “normal contributions” as shown in the complaint.
6. Jan. 10,1997 case KC 0024567 EXHIBIT 6, Complaint for Declaratory
Relief, whether the employer’s contributions are “normal contributions” under
statutes Gov’t Code Sec. 20027 (new 20053) Normal contributions and Gov’t Code
Sec. 20750.1 ( new 20795) Miscellaneous members. . normal contributions.
7. Aug. 11, 1997 EXHIBIT 7, Superior Court ORDER,
barred by doctrine of res judicata..

. this proceeding is

p.2.

8. Sept. 19, 1997 EXHIBIT 8, p.2 Superior Court Order, “Employer’s
contributions to the system are not ‘normal contributions’ as defined in Gov’t Code
Sec. 20053 and 20011 ” (See Table of authorities, for 2nd part) which is wrong.
Employer’s contributions are explicit “normal contributions", which is the title.
Later Court Orders wrongly used the above wrong decision as basis of res judicata.
Notice. During the hearing on Aug. 22,1997,1 read the statute on whether the
employer’s contributions are normal contributions, then I asked the Hon. Judge
McVittie whether the employers’ contributions are normal contributions. He said
NO, so I said, Your Honor, but that is not consistent with the law. Then he said, I
know, but I have to give a decision I feel comfortable with. Then he said, you
know how to appeal.
9. Feb. 25, 1998 case B115924 EXHIBIT 9, Cal Court of Appeals Affirmed.
10. May 13, 1998 case S069199 EXHIBIT 10. Cai Supreme Court Denied
petition for review.
11. May 1998 case 98-5585 EXHIBIT 11, U.S. Supreme Court, filed was

13

petition for writ of certiorari, later Denied the petition and then Denied petition for
rehearing, 142 L.Ed 2d 210.
12. Mar. 12, 1999 EXHIBIT 12, In his letter, Sen. Staff Counsel Plasencia
argued wrongly interpreting statute Gov’t Code Sec. 21259,

. after you received

a refund.. . you were no longer a ‘member’ of CaiPERS.” But PERS was wrong
because the law (Cal) Gov’t Code Sec. 21203(new 21259) is mandatory. After I
was 50 years old and qualified to retire, “.. after a member has qualified as to age
and service . . .nothing shall deprive him or her of right to retirement allowance...”
And I am still a PERS member because the employer’s contributions to the
retirement fund on my behalf have remained in deposit with PERS.
13. Apr. 30,1999 case KC030508 EXHIBIT 13. Complaint on Intentional
Tort on violation of Gov’t Code Sec. 21203 (new 21259) Nonforfeiture after
qualification for retirement, p. 1.
14. July 12, 1999 case KC030508 EXHIBIT 14. Superior Court ORDER .
Dismissed, “. .complaint is barred by doctrine of res judicata..Also on July
12,1999. Prefiling Order.
15. Sept. 17,1999 case 99-09457 EXHIBIT 15, Petition For Leave Of
Presiding Judge Of Court Where Any Litigation Against Defendant PERS Is
Proposed To Be Filed For Call For Determination Of Identical Question Of Law,
Which The Superior Court Refused To Interpret Because Of Its Claim That The
Action Is Barred By Doctrine Of Res Judicata And The Superior Court Dismissed
The Action, on issue: whether PERS’s alternative offer for the withdrawal of the
accumulated member contributions to deprive plaintiff of retirement allowance a
violation of statute Cal Gov’t Code Sec. 21203 (new 21259) Nonforfeiture after
qualification for retirement.

16. Dec. 8, 1999 case 99-09457 EXHIBIT 16. District Court Order dismissed
action for lack of subject matter jurisdiction under 11th Amendment, .in absence of
consent of suit, without prejudice, p.5.
17. Oct 27, 2003. CV03-07673 EXHIBIT 17, Complaint for Declaratory
Relief Under Amendment Fourteen Of Constitution On Cal Retirement Laws
FERS Wrongly Interpreted, And Cal Courts Wrongly Interpreted Or Refused To
Interpret By Reason Of Res Judicata, on 3 issues: whether PERS’s alternative offer
for the withdrawal of the accumulated member contributions to deprive plaintiff of
lifetime retirement allowance a violation of statute Cal Gov't Code Sec.21203 (new
21259) Nonforfeiture after qualification for retirement, and whether the employer’s
contributions are “normal contributions” under statutes Cal Gov’t Code Sec. 20027
(new 20053) Normal contributions, and Gov’t Code Sec. 20750.1 (new 20795)
Miscellaneous members, .normal contribution.
18. Feb. 25, 2004 case CV03-07673 EXHIBIT 18. 1st Plaintiffs Request for
Entry of Default.
19. May 6, 2004 EXHIBIT 19. 2nd Plaintiff’s Request for Entry of Default.
20- Jun. 25, 2004. EXHIBIT 20. District Court Order Dismissed complaint
without prejudice, because “Plaintiff failed to file an application for entry of
default”.
Notice. This order was very wrong, because there were two prior applications
for entry of default on Feb. 25,2004 and May 6,2004 EXHIBITS 18 & 19..
21. July 30, 2004. Case 04-06315 EXHIBIT 21. Complaint For Declaratory
Relief Under Amendment Fourteen Of Constitution On Cal Retirement Laws PERS
Wrongly Interpreted, And The Cal Courts Wrongly Interpreted Or Refused To

ur

“NOTICE: Magistrate Judge Newman, without authority and in violation of
law 28 USC 636 (A)(B), rendered judgment ORDER on the motion for new
judgment denying motion, which ORDER is fraud.”
“NOTICE:.. Federal Rule of Civ. Proc. Sec. 60. OTHER POWER TO GRANT
RELIEF

3) set aside a judgment for fraud in the court. “

332 May 17, 2018 EXHIBIT 332 MANDATE
“The judgment of this court, entered April 25, 2018, takes effect this date.”
333 May 21, 2018 EXHIBIT 333 Re-MANDATE objection to MANDATE
“Federal Rule of Appeal Procedure.41(b) is the right procedure, to quote:
When Issued. The court’s mandate must issue 7 days after the time to file a
petition for rehearing expires, or 7 days after entry of an order denying a
timely petition”.
336 May 31. 2018 Order showing misplaced Petition for panel rehearing
346 Oct 2,2019 EXHIBIT 346 Appeal ORDER closed case, giving its reasons,
to quote:
“The court’s April 25, 2018 order dismissed this appeal for lack ofjurisdiction
and the mandate issued May 17, 2018. .. .The motion to recall the mandate is
denied because there are no ‘extraordinary circumstances’ to support such relief.”
Notice: The court failed to consider the mandate law in the PETITION FOR
PANEL REHEARING and the Re-MANDATE and that is fraud in the court
(FRAP 60) and that is violation of the Code of Conduct for U.S Judges, Canon 2,
A Judge Should Avoid Impropriety .,,A judge should respect and comply with the
law..

CONCLUSION
On p.4- 6 in this Complaint, ISSUE I regarding Cal Gov’t Code Sec. 20691,
employer’s contributions are normal contribution; ISSUE II Cal Gov”t Code Sec.
21203 (new 21259) Non forfeiture after qualification; ISSUE III on loan laws,
Cal Gov’t Code Sec. 21203 (new20654) which allows withdrawals as loans, and
ISSUE IV, Amendment 13, prohibition of slavery, are new and have no prior
judgments that determined from any court, so res judicata does not apply to these
issues in declaratory relief action in new or same action based on the same facts,
Code of Civ. Proc. Sec. 1062, see p,7.
STATUTE OF LIMITATION DOES NOT APPLY under Cal Gov’t Code Sec.
2018l(new 20164), see p.6.
On Sept. 27, 2012 EXHIBIT 152 on Defendant’s p.3 STATUS REPORT,
PERS wanted settlement, Plaintiff appreciates it very much if Honorable Judge
will encourage settlement which Defendant PERS wanted. Defendant PERS just
pays me the values asked for in the complaint and that settles everything.
(Cal) Code of Civil Proc. Sec. 657 Relief available on motion for new trial with
material causes for newly discovered evidence: the Cal Constitution Article
3, Sec. 6 (d), see p. 10, provides any resident can sue state and therefore state
agencies, so there is no immunity under 11 Amendment that is the ground for
dismissal of the judgment of Dec. 19, 2012..
FEDERAL RULE OF APPEAL PROC. SEC 60, GROUNDS FOR RELIEF
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial.

2-0

V....

(4) the judgment is void;
The new discovered evidence, California Constitution Article 3 voided the
judgment of 11th Amendment immunity of .December 19, 2012 with no tme
limitation to file relief.
From the foregoing, res judicata does not apply in declaratory relief action, this
Court has jurisdiction, see on p. 1-3. for the many above reasons cited. CalPERS is
in violations of the California public employees’ retirement laws, the equal
protection clause of Amendment Fourteen and Amendment 13, on p.6 prohibition
of slavery. Therefore, Defendant Board of Administration, PERS shall pay Plaintiff
Barroga the accumulated pensions, see EXHIBIT 34, in the amount of
$3,565,573.45 up to December 2018 and a monthly pension of $6,192.39 starting
from January 2019, accruing and accumulating.
The Complaint for declaratory relief is entitled precedence because Defendant
PERS is a stale agency, under Cal Code of Civ. Proc. Sec. 1062.5(2), to quote;
The action shall be set for trial at the earliest possible date and shall take
precedence over all cases other than those in which the state is a party.
Date: May 2.&2019

Respectfully submitted,
6
Lucio A. Barroga

ATTACHED ARE THE CITED EXHIBITS , Vol. I, & Vol. II. The first page
bottom of documents has its date.

3U

1
2
3
4

5
6
7

8

Xavier Becerra, State Bar No. 118517
Attorney General of California
Ismael A. Castro, State Bar No. 85452
Supervising Deputy Attorney General
Brenda A. Ray, State Bar No. 164564
Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento. CA 94244-2550
Telephone: (916)210-7896
Fax: (916) 324-5567
E-mail: Brenda.Ray@doj.ca.gov
Attorneysfor Defendant
Public Employees' Retirement System

9

IN THE UNITED STATES DISTRICT COURT

10

FOR THE EASTERN DISTRICT OF CALIFORNIA

11
12
13
14

2:19-C V-00921 -MCE-KJN

LUCIO A. BARROGA,
Plaintiff.
v.

15
16
17
18

BOARD OF ADMINISTRATION, CAL
PUBLIC EMPLOYEES’ RETIREMENT
SYSTEM,,
Defendant.

19

DEFENDANT’S NOTICE OF MOTION
AND MOTION TO DISMISS PURSUANT
TO RULES 12(b)(1) AND 12(b)(6) OF
THE FEDERAL RULES OF CIVIL
PROCEDURE; MEMORANDUM OF
POINTS AND AUTHORITIES IN
SUPPORT THEREOF
Date:
Time:
Courtroom:
Judge:
Action Filed:

August 29, 2019
10:00 a.m.
25
The Hon. Kendall J. Newman
May 22, 2019

20

21

TO: LUCIO A. BARROGA, plaintiff in pro per:

22

PLEASE TAKE NOTICE that, on August 29, 2019, at 10:00 a.m., or as soon thereafter as

23

the matter may be heard in Courtroom 25 of the United States District Court, Eastern District of

24

California, located at 501 “I” Street, Sacramento, CA 95814, defendant California Public

25

Employees’ Retirement System (CalPERS) will move the court for an order dismissing plaintiffs

26

complaint and it as a defendant. Defendant will move the court to dismiss it and plaintiffs

27

complaint pursuant to Rule 12, subdivision (b)( 1), of the Federal Rules of Civil Procedure on the

28

basis that the court lacks subject matter jurisdiction and pursuant to Rule 12, subdivision (b)(6),
Defendant’s Notice of Motion and Motion to Dismiss (2:I9-CV-Q0921-MCE-KJN)

#/

-

V

1

of the Federal Rules of Civil Procedure on the basis that the complaint fails to state a claim

2

against defendant CalPERS in that plaintiffs claims are barred by the doctrine of res judicata.

3

This motion is based on this notice of motion and motion, the attached memorandum of

4

points and authorities, the court file herein, and any such matters as may be presented to the court

5

at the time of hearing.

6

Dated: June 22, 2019

Respectfully submitted,

7

Xavier Becerra
Attorney General of California

8

Ismael A, Castro

Supervising Deputy Attorney General

9
10

/s/ Brenda A. Ray

11

Brenda a. Ray
Deputy Attorney General
Attorneys for Defendant
Public Employees' Retirement System

12
13
14

15
16
17
18
19
20

21
22
23
24

25
26
27
28
2
Defendant’s Notice of Motion and Motion to Dismiss (2:19-CV-0092 t-MCE-KJN)

I

2
3
4
5

6
7

Xavier Becerra, State Bar No. 118517
Attorney General of California
Ismael a. Castro, State Bar No. 85452
Supervising Deputy Attorney General
BRENDA A. Ray, State Bar No. 164564
Deputy Attorney General
1300 1 Street. Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916)210-7896
Fax: (916) 324-5567
E-mail: Brenda.Ray@doj.ca.gov
Attorneys for Defendant
Public Employees' Retirement System

8
IN THE UNITED STATES DISTRICT COURT
9
FOR THE EASTERN DISTRICT OF CALIFORNIA

10
!i

12

LUCIO A. BARROGA

13
14

15

16
17

v.

2:19-CV-00921-MCE-KJN
Plaintiff, MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT THEREOF

BOARD OF ADMINISTRATION, CAL
PUBLIC EMPLOYEES’ RETIREMENT
SYSTEM,,

Date:
Time:
Courtroom:
Judge:
Action Filed:

August 29, 2019
10:00 a.m.
25
The Hon. Kendall J. Newman
May 22, 2019

Defendant.

18
19
20
21
22
23
24
25
26

!
t

27
28
Memorandum of Points and Authorities in Support Thereof (2;I9-CV-0092l-MCE-KJN)

s

TABLE OF CONTENTS
2
3
4
5

6
7
8

9
10
11
12

Page
Preliminary Statement
Statement of Facts.....
Argument.................
The Complaint Should Be Dismissed Pursuant to Federal Rule of Civil
Procedure 12(B)(1) for Lack of Subject Matter Jurisdiction Because
Defendant CalPERS is Entitled to Eleventh Amendment Immunity...........
Legal Standard Under Federal Rule of Civil Procedure I2(B)(1)....
A.
B.
The Court Lacks Subject Matter Jurisdiction Because Defendant
CalPERS is Immune from Suit.......................................................
II.
Plaintiffs Complaint Should Be Dismissed Pursuant to Federal Rule of
Civil Procedure 12(B)(6) on the Basis of Claim and Issue Preclusion........
A.
Legal Standard Under Federal Rule of Civil Procedure 12(B)(6)....
B.
The Complaint Fails to State a Claim for Relief Because Plaintiffs
Claims are Barred by Res Judicata and Collateral Estoppel............
Conclusion

10

10
10

11
13
13

14

18

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
t

Memorandum of Points and Authorities in Support Thereof(2:l9-CV-0G92l-MCE-KJN)

PRELIMINARY STATEMENT
2

i

i

In the late 1970s, plaintiff retired from government service and elected to withdraw his

3

employee retirement contributions from defendant CalPERS in a lump sum rather than collect a

4

monthly pension benefit. Nearly ten years later, plaintiff has sought to have defendant CalPERS

5

allow him to recontribute his withdrawn contributions and gram him a monthly pension benefit.

6

Following an administrative hearing, defendant CalPERS ruled plaintiff was not entitled to

7

redeposit withdrawn contributions in order to obtain a CalPERS pension. Plaintiff then appealed

8

the administrative decision numerous times over the next 28 years before the California Superior

9

Court for the County of Los Angeles, the California Court or Appeal, the California Supreme

10

Court, the United States District Court for the Central and Eastern Districts of California, and the

I!

United States Supreme Court. Plaintiff now once again seeks to re-litigate the complaint with

12

prejudice because (1) the court lacks subject matter jurisdiction because defendant CalPERS is

13

entitled to immunity under the Eleventh Amended and (2) plaintiff has failed to state a valid

14

cause of action because his case is barred by the doctrines of res judicata and collateral estoppel.

15

STATEMENT OF FACTS

16

The City of El Segunda employed plaintiff from 1969 to 1977. See Barroga v Bet of

17

Admin CalPERS. California Court of Appeal Case No. B077855, attached as Exhibit 2 to the

18

Complaint, at p.2. In 1979, plaintiff elected to withdraw his employment contributions from

19

CalPERS Ibid; April 18, 1996, Letter from Richard Koppes. Deputy Executive Officer and

20

General Counsel of CalPERS to Plaintiff, attached as Exhibit 5 to Complaint. CalPERS remitted

21

to plaintiff his employee contributions of nearly $10,000 and terminated his membership from

22

CalPERS. Barroga v. Bd. ofAdmin. CalPERS.. B077855, p.2; Koppes 4-18-1996 Letter, p.l; see

23

also Complaint, p.3. Almost ten years later in 1988, plaintiff wrote to CalPERS requesting

24

retirement benefits, asserting that he had withdrawn his contributions by mistake. Barroga v. Bd.

25

ofAdmin. CalPERS, B077855, p. 2; Koppes 4-18-1996 Letter; see also Complaint pp. 3-4.

26

Plaintiff requested that CalPERS treat its remittance of his employee contributions as a loan.

27

Ibid., see also Complaint, pp. 3-4.

28

/■

Memorandum of Points and Authorities in Support Thereof (2:I9-CV-0092I-MCE-KJN)

i

CalPERS denied plaintiff s request, informing him that, because he was not a current
2

member of CalPERS, he was not eligible to redeposit his contributions and that CalPERS’ prior
remittance to him could not be treated as a loan. Sept. 5, 1995, Letter from Kayla Gillian, Deputy

4

Genera! Counsel to CalPERS. to Plaintiff, attached as Exhibit 4 to the Complaint, Koppes 4*18*

5

1996 Letter; Barroga v. Gillian, et ai, Los Angeles Superior Court Case No. KC 024567, Order

6

Granting Defendants’ Motion for Summary Judgment and Denying Plaintiff s Motion, attached
* •

,

7

as Exhibit 7 to the Complaint, 2:3-8 (appealed in Barroga v. Gillian, et ai. California Court of

8

Appeal Case No. B115924 and California Supreme Court Case No. B115924, attached as

9

Exhibits 9 & 10 to the Complaint); see also Complaint p. 4. Plaintiff appealed this decision at an

10

administrative hearing. Ibid; Complaint, p. 12. An administrative hearing was conducted on or

11

about May 3, 1990, and the ALJ ruled against plaintiff, finding plaintiff was not entitled to

12

redeposit withdrawn contributions in order to obtain a CalPERS pension. Ibid. In November

13

1990, the Board of Administration of CalPERS adopted the ALJ's proposed decision. Ibid.

j
i
j

■

i
i

14

On February 14, 1991, Plaintiff filed suit in Los Angeles County Superior Court against

15

CalPERS for breach of contract and fraud. Complaint, p.i2; Barroga v. Bd. ofAdmin. CalPERS.

16

KC003981, attached as Exhibit 1 to the Complaint. CalPERS’ answer asserted the affirmative

17

defense that Barroga’s sole remedy was a petition for administrative mandamus (Code of Civ.

18

Proc., § 1094.5), not a lawsuit for damages. Barroga v. Bd. ofAdmin. CalPERS. B077855. at pp.
2-3, attached as Exhibit 2 to the Complaint. CalPERS ultimately obtained a judgment on the

19

j

20

pleadings on that basis. Ibid. The Court of Appeal for the Second Appellate District affirmed that j

21

judgment in an unpublished opinion filed on January 25, 1994 in Barroga v. Board of

22

Administration CalPERS, B077855. Ibid The California Supreme Court denied plaintiff s

23

petition for review on April 12, 1994. Complaint,p. 12; Barroga v. Bd. ofAdmin. CalPERS.

24

S038365, attached as Exhibit 3 to the Complaint.

25

;

On January 10, 1997, plaintiff filed a declaratory relief action against CalPERS. making the

26

same claims he had already made in his administrative action and in prior lawsuits. Complaint, p. j

27

13; Barroga v, Gillian, Los Angeles Superior Court Case No. KC024567. attached as Exhibit 6 to 1

28

the Complaint. Plaintiff and CalPERS filed cross-motions for summary judgment. Barroga v.
2

Memorandum of Points and Authorities in Support Thereof (2:I9*CV-00921-MCE-KJN)

i

1

and legal issues which were the subject of the prior proceeding.” Barroga v. Gillian, KC024567,

2

Ex. 7, 2:18-20. The Los Angeles Superior Court dismissed that action finding that plaintiff s

3

claim was barred by the doctrines of claim and issue preclusion. Id. at Ex. 7. In addition to

4

dismissing plaintiffs complaint on procedural grounds* the trial court also reviewed the substance

5

of plaintiffs claim, ruling on August 11, 1997, that plaintiffs claim for CalPERS retirement

6

benefits was “erroneous as a matter of law” because “the undisputed facts establish that upon

7

separation from the City of El Segundo he received all of his normal contributions and thus

8

ceased being a PERS member. In the absence of any evidence establishing that Barroga remains a

9

member of PERS, he is not entitled to redeposit his contributions.” Id. Ex. 7, at pp. 2-3. Plaintiff

10

moved to vacate the trial court’s dismissal of his complaint, which the trial court denied on

11

September 19, 1997. Id. Ex. 8. Again, the Superior Court reviewed the merits of plaintiffs claim

12

for CalPERS retirement benefits and found them unpersuasive:

13

14
15
16
17
18
19
20

After considering all of the papers filed by both plaintiff and defendants, and upon
hearing the arguments of counsel, the court denies the motion. The court finds that
plaintiff is not currently a member of the Public Employees’ Retirement System
(“PERS”) because upon separation from PERS-covered employment, he elected to
receive all of the contributions which he made into the system pursuant to
Government Code section 20340. Employer contributions to the system are not
‘normal contributions’ as defined in Government Code sections 20053 and 20011.
Accordingly, because plaintiff is not currently a member of PERS, plaintiff is
ineligible to participate in the redeposit program as required by Government Code
section 20750.
Id. Ex. 8, 2:11-19.
Plaintiff appealed the Superior Court’s decision, which was denied by the Second District

21

Court of Appeal on February 25, 1998. Id. Ex. 9, California Court of Appeal Case No. B115924.

22

The California Supreme Court denied plaintiffs petition for review on May 13, 1998. Id. Ex. 10,

23

California Supreme Court Case No. SD69199. On October 5, 1998, the Supreme Court of the

24

United States denied plaintiffs petition for writ of certiorari. Complaint, pp. 13-14; Barroga v.

25

Gillan et al,, 525 U.S. 911 (1998). Plaintiff filed a petition for rehearing and the Supreme Court

26

of the United States denied the petition on December 7, 1998, Complaint, pp. 13-14; Barroga v.

27

Gillan et al., 525 U.S. 1049 (1998). Hence, the Los Angeles Superior Court’s decision finding

28 | plaintiff ineligible for CalPERS retirement benefits has become final and operates to preclude him
17
Memorandum of Points and Authorities in Support Thereof(2:l9-CV-0092l-MCE-KJN)

m

V.

from rclitigating the issue now.
»
2

The doctrine of res judicata applies here because: (1) this case involves the same claim for

3

CalPERS retirement benefits plaintiff has repeatedly litigated, including in the cases of Barroga

4

v. Board ofAdministration, Public Employees' Retirement System (Los Angeles Superior Court

5

Case No. KC003981, California Second District Court of Appeal Case No. B077855) and

6

Barroga v. Gillan, et al., (Los Angeles Superior Court Case No, KC024567, California Second

7

District Court of Appeal Case No. B1 15924); (2) the instant case involves the identical parties or

8

privies, specifically plaintiff Barroga and CalPERS or an official from CalPERS; and (3) the

9

previous state Court of Appeal matters reached a final judgment on the merits of plaintiffs claim

10

to retirement benefits. Thus, the doctrine of res judicata applies precluding the instant suit and the

11

Court should grant defendant’s motion to dismiss with prejudice.

12
13

CONCLUSION
Defendant CalPERS respectfully requests that the court grant its motion to dismiss without

14

leave to amend because (I) the court lacks subject matter jurisdiction because defendant CalPERS

15

is entitled to immunity under the Eleventh Amendment and (2) plaintiff has failed to state a valid

16

cause of action because his case is barred by the doctrine of res judicata.

17

Dated: July 22, 2019

Respectfully Submitted,

18

Xavier Becerra
Attorney General of California
IsmaeL'A. Castro
Supervising Deputy Attorney General

19
20
21
22

/s/ Brenda A. Ray

23

Brenda A. Ray
Deputy Attorney General
Attorneysfor Defendant
Public Employees' Retirement System

24
25
26

SA2019I02688
!3939496.docx

27
28
18
Memorandum of Points and Authorities in Support Thereof(2:19-CV-0092!-MCE-KJN)

V.

V.
LUCIO A. BARROGA, PRO SE
P.O. BOX 2516
LONG BEACH, CA 90801
TEL 562-243-1024

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
. LUCIO A. BARROGA,

! CASE NO. 2-19 CV 00921

Plaintiff

! OBJECTION
! TO DEFENDANT'S
! MOTION TO DISMISS

V.

! THE COMPLAINT

BOARD OF ADMINISTRATION, CAL PUBLIC
EMPLOYEES' RETIREMENT SYSTEM (PERS),
_____________________

Defendant

MEMORANDUM OF POINTS AND AUTHORITIES
STATEMENT OF FACTS
.

After reaching 50 year old in April 1979 and retirable,! submitted an application

for retirement pensions from previous services with the City of El Segundo, and
later I went to Sacramento PERS office to follow up application. PERS offered me
two choices: 1) to receive a monthly pension of $135, or 2) as alternative, to receive
a lump sum of my member contributions (approx. 1% of salaries), but the
employer's contributions on my behalf (approx. 7.75% of salaries under Gov't Code
Sec. 20750.1 [new 20795]), will remain with PERS. I received approximately $10,000
of my accumulated member contributions, with the employer's contributions on my
behalf remaining in deposit with PERS.

i

y

/

$Z

Later in some years, I requested that the offered monthly pension shall pay and
redeposit for the withdrawn member contributions as a loan which PERS
maliciously omitted to inform the monthly pension can redeposit per statute (Cal)
Gov't Code Sec. 20654 (new 20750) Redeposit of Withdrawals, and when the loan
or withdrawal is fully paid with interest, then monthly pension will start to me. But
PERS claimed the employer's contributions which have remained with PERS are
NOT "normal contributions", therefore I ceased to be a member when the member
contributions were withdrawn, and I am not anymore entitled any pension benefits.
I have contended that I am still a PERS member, because the employer's
contributions on my behalf have remained in deposit with PERS and are "normal
contributions" under the laws, and therefore, I am entitled retirement benefits..
NOTICE: Defendant's MOTION TO DISMISS omitted to mention or show the fact
that the employer's contributions to the retirement fund in my behalf still remain in
deposit with PERS which entitles me to retain my membership with PERS, and
which in the complaint is ISSUE IV Violation of Amendment 13, prohibition of
slavery for being denied benefits derived from the employer's contributions to the
retirement fund on my behalf which I had worked and toiled for.
ISSUES OR CAUSES OF ACTION, p. 4-6 Complaint.
Proof that I am still a PERS member, because the employer's contributions on my
behalf to the retirement fund have remained in deposit with PERS, to quote:
A person ceases to be a member:
(b) if he or she is paid his or her "normal contributions".
Therefore, IF the employer's contributions which have remained in deposit with
PERS are "normal contributions", then I am still a PERS member.

ISSUE I: ARE THE EMPLOYER'S CONTRIBUTIONS TO THE RETIREMENT FUND ON
BEHALF OF MEMBERS, "NORMAL CONTRIBUTIONS" UNDER THE NEW DISCOVERED
STATUTE, (CAL) GOV'T CODE SEC. 20691? (New Issue, different from prior Issues)
(Cai) Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer
Notwithstanding any other provision of law, a contracting agency or school
employer may pay all or a portion of the normal contributions required to be
paid by a member. The payment shall be reported simply as normal
contributions and shall be credited to member accounts.
The employer's contributions are explicit "normal contributions", therefore I am
still a PERS member, entitled retirement benefits.

ISSUE II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF THE
ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF LIFETIME
RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALFIED FOR RETIREMENT
AFTER REACHING 50 YEARS OLD, A VIOLATION OF (CAL) GOV'T CODE SEC. 21203
(NEW 21259)?
(Ca!) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification for
retirement
Subject to compliance with this part, after a member has qualified as to . .
age and service for retirement for service, nothing shall deprive him or her
of the right to retirement allowance as determined under this part.

ISSUE ill : IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN MEMBER
CONTRIBUTIONS AS LOANS A VIOLATION OF PERS'S LOAN LAWS WHICH ALLOW

3

'V. .

WITHDRAWALS AS LOANS? OR DISCRIMINATORY?
(Cai) Gov't Code Sec. 20654 {new 20750) Redeposit of withdrawals,
interest..
.........member may file an election with the board to redeposit in the
retirement fund, in lump sum or by installment payment (1) an amount
equal to the accumulated contributions., .withdrawn, and {2} an amount
equal to the interest. .,and (3) if he or she elects to redeposit in other than
one sum, interest on the unpaid balance at date of election to redeposit.
(Cal) Gov't Code Sec. 20211 {new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20208.5 (new 20203) Security loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program.
(Cal) Gov't Code Sec. 20201 Secured home loan.
ISSUE IV: CONSTITUTION, AMENDMENT 13 IS VIOLATED. PERS HAS DENIED
PLAINTIFF RETIREMENT BENEFITS DERIVED FROM THE EMPLOYER'S
CONTRIBUTIONS TO THE RETIREMENT FUND ON MY BEHALF, WHICH EMPLOYER'S
CONTRIBUTIONS I HAD WORKED AND TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude.. .shall
exist within the United States,..
If any of the ISSUES is YES, in fact, ail are yes, then I am entitled retirement
benefits and the redeposit of the withdrawn contributions.
The Complaint and Sumons filed May 22, 2019 required a response within 21
days, but Defendant's Request To Extend Time To Respond up to July 22, 2019
served June 21, 2019 was late and untimely, therefore Defendant's Motion To
Dismiss the Complaint is invalid, to quote, in Motion For Request For Entry Of

t

Default,.. served July 5, 2019:
Fed Rule of Civ. Proc. 6, (b) Extension time
in General: When an act may or must be done within a specified time,.
. .the court may, for good cause, extend the time ..
(A).. if a request is made, before the original time or its extension expires
The Defendant Request To Extend Time To Respond was not signed by the attorney,
another reason the Request is invalid.
ADDITIONAL reasons to Plaintiff's Objections to Defendant's MOTION TO DISMISS
the complaint.
The Defendant's Motion To Dismiss the Complaint gave two reasons to dismiss the
Complaint, to quote:
I

The Complaint Should Be Dismissed Pursuant To Federal Rule of Civ Proc.

12(B)(1) for Lack of Subject Matter Jurisdiction Because Defendant CalPERS is
Entitled to Eleventh Amendment Immunity p.10
II. Plaintiff's Complaint Should Be Dismissed Pursuant To Federal Rule of Civ.
Proc. 12(B)(6) on the Basis of Claim and Issue Preclusion
The Complaint Fails to State a Claim for Relief Because Plaintiff's Claims are
Barred by Res Judicata and Collateral Estoppel
ANSWERING I: Defendant's reason for Eleventh Amendment immunity is because
Defendant PERS is a state agency and therefore cannot be sued. Defendant's reason
is wrong, in new discovered evidence, the California Constitution provides any
California resident can sue the state and therefore state agencies, including CalPERS

r

pursuant to law, in Complaint, p. 10:
Cal Constitution Article 3, Sec. 6 (d)
(d) Personal Right of Action and Jurisdiction of Courts.
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section
STATUTE OF LIMITATION DOES NOT APPLY p.6. Complaint
.Cal Gov't Code Sec. 20181 (new 20164) Duration of obligation; limitation of
actions . .

(b)(2) In cases where the system owes money to a

member or beneficiary, the period of limitation shall not apply.
Defendant's STATUS REPORT, p.3 EXHIBIT 152 Defendant PERS wanted settlement,
to quote:
CalPERS prepares to have a settlement conference conducted by someone
other that the district court judge and the magistrate judge assigned to this
matter.
But Defendant's attorney does not reply for request for settlement. EXHIBIT 313.
Newly discovered evidence: the Cal Constitution Article 3, Sec. 6(d) see p.10,
provides any resident can sue the state, including therefore state agencies, so
therefore 11th Amendment immunity that is the ground for the dismissal in the
judgment of Dec. 19, 2012 does not apply.
RELIEF AVAILABLE ON MOTION FOR NEW TRIAL
(Cal) Code of Civil Proc. Sec. 657 Relief available on motion for new trial,

J*

causes..
4. Newly discovered evidence, material for the party making the
application, which he could not, with reasonable diligence, have discovered
and produced at the trial.
6. Insufficiency of evidence to justify the.. decision, or the
decision is against the law.
FEDERAL RULE OF CIVIL PROC. 60
(b) Grounds For Relief From A Final Judgment, Order, Or Proceeding
(2) newly discovered evidence, that with reasonable diligence, could not .
have been discovered in time to move for a new trial.
(4) the judgment is void
The new discovered evidence, California Constitution Article B, Sec. 6 voided the
judgment of 11th Amendment immunity of December 19, 2012 with no time
limitation to file relief.
28 US CODE SEC. 1652 STATE LAWS AS RULES OF DECISION
ANSWERING II:

Defendant PERS's 2nd (II) reason to dismiss the complaint is

quoted: Plaintiff's Claims are Barred by Res Judicata and Collateral Estoppel
Defendant PERS's argument on the issue on res judicata and collateral estoppel is
wrong as shown by the following Plaintiff's arguments:
The title of the Complaint, COMPLAINT FOR DECLARATORY RELIEF UNDER CAL CODE
OF CIV. PROC SEC. 1062 IN NEW OR SAME ACTION BASED ON SAME FACTS WHICH
OVERCOMES RES JUDICATA.

i

RES JUDICATA DOES NOT APPLY UNDER DECLARATORY RELIEF LAW
(Cal) Code of Civil Proc. Sec. 1062 Cumulative remedy
The remedies provided by this chapter are cumulative, and shall not be
construed as restricting any remedy, provisional or otherwise, provided by
law for the benefit of any party to such action, and no judgment under this
chapter shall preclude any party from obtaining additional relief based upon
the same facts.
The ISSUES I, II, III, and IV answerable by yes or no in the complaint have NOT been
interpreted and determined by any court. So the court has jurisdiction on issues.
28 US CODE § 1331.
Federal question
The district courts shall have original jurisdiction of ail civil actions arising
under the Constitution, laws, or treaties of the United States
And newly discovered evidence: the Cal Constitution Article 3, Sec. 6(d), see
above, provides any resident can sue the state.
The law decrees that a judge has duty to interpret law pursuant to:
Cal Code of Civ. Proc. Sec. 170 decrees that "a judge has the duty to decide
any proceeding in which he or she is not disqualified
The Honorable judge should therefore render judgment to the 4 ISSUES I, II, 111,
and IV answerable by yes or no to comply with the law.
CODE OF CONDUCT FOR UNITED STATES JUDGES

8

CANON 2: A JUDGE SHOULD AVOID IMPROPRIETY AND THE APPEARANCE OF
IMPROPRIETY IN ALL ACTIVITIES
A. Respect for Law. A judge should respect and comply with the law and..
integrity and impartiality of the judiciary
B. Outside influence. A judge should not allow family, social, political, financial, or
other relationships to influence judicial conduct or judgment.
CONCLUSION
COMPLAINT AND SUMMONS were served May 22, 2019 . Defendant did not
respond to the COMPLAINT AND SUMMONS.The Hon.Magistrate Judge Edmund
Brennan and Hon. Judge Troy Nunley were assigned to this case. A REQUEST FOR
ENTRY OF DEFAULT was served on June 24, 2019 . The Hon Magistrate Judge
Kendall Newman's ORDER dated June 11, 2019 ordered that he be the judge to
replace Magistrate Judge Brennan, My letter of June 14, 2019 to the Clerk objected.
A Defendant's Request To Extend Time To Respond was served July 23, 2019, but
was untimely, violating the law , repeating:
Fed Rule of Civ. Proc. 6, (b) Extension time
In General: When an act may or must be done within a specified time ,.
. .the court may, for good cause, extend the time ..
(A).. if a request is made, before the original time or its extension expires
Defendant's MOTION TO DISMISS served July 23, 2019 is therefore untimely and
invalid for the untimely Defendant's Request To Extend Time To Respond. The
Defendant's MOTION TO DISMISS gave two reasons to dismiss the complaint:,
1) 11th Amenddment immunity because PERS being a state agency can not be

c

sued, 2) and Plaintiff claim is barred by res judicata and collateral estoppel. A new
discovered California Constitution Article 3, Sec, 6 provides that any resident has
standing to sue the state and therefore Defendant PERS can be sued. Statute of
limitation does not apply where PERS owes money to a member or beneficiary.
Res judicata does not apply under Declaratory Relief law with Cal Code of Civ. Pro.
Sec. 1062 in new or same action based on the same facts. And 28 USC1331
provides district courts have original jurisdiction of civil actions. Cal Code of Civ.
Proc. Sec. 170 decrees that "a judge has the duty to decide any proceeding in
which he or she is not disqualified". The Defendant never responded to the
ISSUES I, II, III, and IV answerable by yes or no. In Defendant's Status Report of
Sept 27, 2012 EXHIBIT 152 p.3, defendant wanted settlement, but attorney does
not respond for plaintiff's request for settlement.
From the foregoing, Defendant's MOTION TO DISMISS the COMPLAINT on July 23,
2019 is untimely which MOTION is based on an untimely Defendant's Request To
Extend Time To respond should be denied. The REQUEST FOR ENTRY OF DEFAULT
of June 22, 2019 should be granted.
I may not be able to attend a hearing because I will just be reciting and repeating
what are already in the documents submitted. As precedent, the Hon. Judge
Morrison England rendered judgment of Order Dec. 19, 2012 without a hearing.
In a case in the US Court of Appeals for the Federal Circuit, Case 89-1376, 90-1080
In Re Lucio A. Barrago 904 F.2d 44, the court asked me to go and argue my case in
15 minutes hearing, but I was homeless, and court decided the case without me in
the hearing. Also the US Supreme Court in Case 90-6210 Barroga v. US Patent and

lo

Trade Mark Office 914 F.2d 270, asked me to go and argue in 20 minutes hearing,
but I was homeless and cannot afford to go. I just relied on the integrity of courts to
decide, See attached ORDERS.
Date: August j , 2019

Respectfully submitted:

QA/i
Attached: EXHIBITS
Note: At the senate confirmation hearing, Justice Brett Kavanaugh said: If you cite
the law, you win; RULE OF LAW; judgment without fear or favor.
Foot Notes: I objected to Magistrate Judge Kendall Newman because of his
repeated rendering of adverse judgment without authority in violation of law, 28
USC 636 (A)(B), see orders, EXHIBITS 135,137A. 299. Even the US Court of Appeals
in an order cited the violation without authority, see order EXHIBIT 329, to quote:

(9th Cir. 1992.) holding that absent consent, a federal magistrate judge lacked
authority to a post-judgment decision that has dispositive effect on the
parties
28 USC 636 B
. .a judge may also designate a magistrate judge to conduct hearings,
including evidentiary hearings, and to submit to a judge of the court
proposed findings of fact and recommendations for the disposition, by a
judge of the court, of any motion . .

ii

f

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

LUCIO A. BARROGA,

12
13
14
15
16

Plaintiff,
v.
BOARD OF ADMINISTRATION
CAL.PUBLIC EMPLOYEES’
RETIREMENT SYSTEM,

No. 2:19-cv-0921-MCE*KJN PS
FINDINGS AND RECOMMENDATIONS
TO DISMISS WITH PREJUDICE AND
TO DECLARE PLAINTIFF
A VEXATIOUS LITIGANT.
ORDER TO STAY ACTION WHILE
F&R IS PENDING
(ECFNos. 20, 22)

Defendant.

17
18

Plaintiff Lucio Barroga, proceeding without counsel, brings suit against Defendant

19

“CalPERS” concerning his retirement benefits. (ECFNo. 1.) CaiPERS moves to dismiss for lack

20

of subject matter jurisdiction (11th Arndt, immunity) and for failure to state a claim (claim and

21

issue preclusion). (ECF No. 20.) CalPERS also requests the Court declare Barroga a vexatious

22

litigant and issue a pre-filing order against him, given that these claims have been denied

23

multiple times by both state and federal courts since the early 1990s. (ECF No. 22.)

24

After a review of the record, the undersigned recommends this action be dismissed with

25

prejudice. Further, the undersigned finds Barroga to be a repeat, serial litigant whose multiple

26

suits against CalPERS have made it clear that he will only continue to abuse the judicial process

27

and inundate this district with frivolous complaints. Therefore, the undersigned recommends

28

Barroga be deemed a vexatious litigant and a pre-filing order be instituted against him.

I

l

Background1

2

On May 22, 2019, Barroga filed a complaint entitled “complaint for declaratory relief

3

under Cal Code of Civil Proc. Sec. 1062 on new or same action based on the same facts which

4

overcomes res judicata.” (ECFNo. 1.) This 382-page complaint asserts that when Barroga

5

reached fifty years of age in 1979, he retired from his employment with the City of Ei Segundo.

6

(Id. at p. 3.) Barroga opted to withdraw his retirement contributions from CalPERS, but ten years

7

later requested by letter that he be allowed to repay these amounts so he could stall receiving a

S

monthly benefit. CalPERS denied his request. (Id.)
From the point of CalPERS denial in the early 90s through the present, Barroga has

9
10

attempted to litigate this same issue in a variety of settings. (See, generally, exhibits attached to

il

ECF Nos. 1 and 21 (various complaints, letters, orders, judgments and appeals re: Barroga’s suits

12

against CalPERS)). Notably, Barroga’s 2019 complaint raises the same issues as were raised in

13

2012 by Judge England of this district court. (See 2:12-cv-l 121 MCE-KJN (PS), at ECF No. 1,

14

“Complaint for declaratory relief under Cal Code of Civil Proc. Sec. 1062 on new or same action

15

based on the same facts which overcomes res judicata,”; ECF No. 21 at p. 215.)

u

16

CalPERS moved to dismiss in this action, asserting the same defenses as were raised in

17

the 2012 action. (See ECF No. 20.) These issues are the same that, in 2012, Judge England

18

deemed dispositive in his judgment and order, and are the same that the Ninth Circuit affirmed on

19

two years later, (See 2:19—cv—921 MCE-KJN (PS) at ECF No, 32 (recommending dismissal on

20

11th Amendment Immunity grounds); see also Barroga v. CalPERS., 579 F. App'x 613 (9th Cir,

21

2014) (affirming dismissal on issue and claim preclusion grounds, as well as on the Rooker-

22

Feldman doctrine)). Barroga opposed. (ECF Nos. 26-27.)

23
24

CalPERS also moved to declare Barroga a vexatious litigant, and requested judicial notice
of Barroga’s extensive litigation history. (ECF Nos. 21-22.) Barroga did not respond.

25
1

26
27
28

These facts are based on information contained in the Complaint, and on documents submitted
by CalPERS that are part of the public record—of which the undersigned takes judicial notice.
See Fed. R. Evid. 201; Mir v. Little Co. of Mary Hosp„ 844 F. 2d 646, 649 (9th Cir. 1988) (“In
addition to the complaint, it is proper for the district court to take judicial notice of matters of
public record outside the pleadings and consider them for purposes of the motion to dismiss,”)
2

I.
2

Barroga’s claims fail on the same grounds as in the 2012 action.

Given that Barroga is attempting to litigate the same issues as he raised in 2012

3

(reinstatement of his pension), and given that CalPERS has raised the same issues in their motion

4

to dismiss, the Court will not burden the parties with a lengthy analysis. Instead, the Court refers
j

5

the parties to the findings and recommendations, order, judgment, and memorandum disposition

6

in the 2012 action. (See 2:19-cv-921 MCE-KJN (PS) at ECF No. 32 (recommending dismissal

7

on 11th Amendment immunity grounds); ECF No. 45 {adopting the F&R and dismissing

8

Barroga’s complaint with prejudice); see also Barroga v. CalPERS.. 579 F. App'x 613 (9th Cir.

9

2014) (affirming dismissal of the 2012 action on issue and claim preclusion grounds, as well as

10

on the Rooker-Feldman doctrine—which bars litigation that seeks relief from a state court

11

decision based on an alleged error therein)).

12

For the same reasons as was stated in the dismissal orders, judgment, and Ninth Circuit

13

memorandum in the 2012 action, the undersigned recommends dismissal of Barroga’s current

14

complaint with prejudice.

15
16
17

t

II.

Barroga should be deemed a vexatious litigant, and a pre-filing order should
be imposed.

Alongside the motion to dismiss, CalPERS moved to deem Barroga a vexatious litigant,

18

and requested the Court either require Barroga post security before the action is to proceed or

19

issue a pre-filing order “prohibiting him from filing any new litigation without first obtaining

20

leave of court to do so.” (ECF No. 22.) Barroga did not respond in writing to this motion.

21

Legal Standard

22

The district courts have the power under the Ail Writs Act, 28 U.S.C. § 1651(a), to issue

23

pre-filing orders that restrict a litigant’s ability to initiate court proceedings. De Long v.

24

Hennessey, 912 F. 2d 1144, 1146 (9th Cir. 1990). “[Sjuch pre-filing orders are an extreme

25

remedy that should rarely be used.” Molski v. Evergreen Dynasty Coro., 500 F. 3d 1047, 1057

26

(9th Cir. 2007). However, “[fjlagrant abuse of the judicial process cannot be tolerated because it

27

enables one person to preempt the use of judicial time that properly could be used to consider the

28

meritorious claims of other litigants.” De Long, 912 F. 2d at 1148.
3
i

Barroga without further action of the court;
7

b.) The Clerk of the Court shall not file any future filings from Plaintiff against Defendant

3

CalPERS or their related entitles, nor shall the Clerk file any lawsuit initiated by

4

Plaintiff concerning his defunct pension, unless and until the filing is reviewed and

5

determined by the Court to constitute a non-frivolous claim;

6

c.) If Mr. Barroga submits an action as a self-represented plaintiff accompanied by the

7

required declaration, the Clerk shall open the matter as a miscellaneous case to be

8

considered by the General Duty Judge of this court. The Duty Judge will issue

9

necessary orders after making a determination whether the case is in fact related to a
!

10
11

previous case filed by Mr. Barroga, and whether it is non-frivolous; and
d.) The requirements of subparagraphs (b) and (c) shall be waived if Plaintiffs filing is

;

12

made on Plaintiffs behalf by a licensed attorney at law in good standing who signs the '

13

filing as the attorney of record for Plaintiff.

14

15

FINDINGS AND RECOMMENDATIONS. ORDER
Accordingly, IT IS HEREBY RECOMMENDED that;

16

1. Defendant’s Motion to Dismiss (ECF No. 20) be GRANTED;

17

2. Defendant’s Motion to Declare Plaintiff Vexatious (ECF No. 21) be GRANTED

18

IN PART and DENIED IN PART;

19

3. Plaintiff be DECLARED a vexatious litigant; and

20

4. The Court ISSUE a pre-filing order as described in Section II.D. above.

21

These findings and recommendations are submitted to the United States District Judge

22

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within fourteen 04)

23

days after being served with these findings and recommendations, any party may file written

24

objections with the court and serve a copy on all parties. Such a document should be captioned

25

“Objections to Magistrate Judge’s Findings and Recommendations.” Any reply to the objections \

26

shall be served on all parties and filed with the court within fourteen (14) days after service of the

27

objections. The parties are advised that failure to file objections within the specified time may

28

waive the right to appeal the District Court’s order. Turner v. Duncan. 158 F.3d 449, 455 (9th
15

I

i

1

Cir. 1998): Martinez v. Ylst.951 F.2d 1153, 1156-57 {9th Cir. 1991).
In light of those recommendations, IT IS ALSO HEREBY ORDERED that all pleading,

2
3

discovery, and motion practice in this action are stayed pending resolution of the findings and

4

recommendations. With the exception of objections to the findings and recommendations and

5

any non-frivolous motions for emergency relief, the court will not entertain or respond to any

6

motions and other filings until the findings and recommendations are resolved.

7
8

IT IS SO ORDERED AND RECOMMENDED.
Dated: September 9, 2019

9

7
KENDALL J. NEUMAN
UNITED STATES MAGISTRATE JUDGE

10
11
b;irr.921

12
i

13
14
15
16
17
18
19
20
21
22
23
24

i

25
26
27
28
16

LUCIO A. BARROGA, PRO SE
P.O. BOX 2516
LONG BEACH, CA 90801
Tel. 562-243-1024

LUCIO A. BARROGA,
! CASE NO. 2-19CV00921 .
I
Plaintiff
V.
! OBJECTIONS TO MAGISTRATE
BOARD OF ADMINISTRATION, CALIFORNIA PUBLIC ! JUDGE NEWMAN'S FINDINGS
EMPLOYEES' RETIREMNT SYSTEM (PERS),
! AND RECOMMENDATIONS
________________________ Defendant
MEMORANDUM OF POINTS AND AUTHORITIES

The Defendant’s Request To Extend Time To Respond To The Complaint
Was Late And Untimely, And Therefore On Default, So The Subsequent
Actions Are Untimely And Invalid Or Void Including FINDINGS AND
RECOMMENDAIONS
The Complaint, EXHIBIT (EX) 357 was filed May 22,2019, with causes of action,
the new discovered evidence, Califonia Constitution Article 3, Sec. 6(d) and the 4
ISSUES I, II, III and IV in the p.4-6 Complaint, EX 357, but Defendant PERS did not
respond to the Complaint (EX 357) and Summons (EX 357A) of May 22,2019, so a
REQUESTTO CLERK FOR ENTRY OF DEFAULT (EX 368) was filed on June 24, 2019.
Defendant's Request to Extend Time to Respond to the Complaint (EX 370) of
June 20,2019 was late and untimely, therefore in default, for violation of Fed
Rule of Civ. Proc. 6: to quote:
(b) Extending Time.
(1) In General. When an act may or must be done within a specified time,
the court may, for good cause, extend the time:

I

SBS

V..

(A). .if a request is made, before the original time or its extension expires.
Because of untimely Defendant's Request to Extend Time to Respond, (EX 370) of
Jun 20,2019, the subsequent Defendant's Motion to Dismiss the Complaint (EX
381) of July 22, 2019 is untimely, unlawful and void, which was explained in my
Objection to Defendant's Motion to Dismiss the Complaint filed Aug. 1, 2019.
And so, the court hearing on Aug. 29, 2019 is untimely, unlawful and void, and
therefore the Finding and Recommendation to Dismiss of Sept 9,2019 by
Magistrate Judge Newman is untimely, unlawful and void.
For abundance of reasons to void Magistrate Judge Newman's Findings and
Recommendation to Dismiss, even if unlawful and void, the issues raised in the
Finding and Recommendations will be answered.
The untimely Defendant's Motion To Dismiss the Complaint of July 22, 2019 p.10,
13 gave two reasons to dismiss, in bold letters: 1) Defendant CalPERS Is Entitled
To Eleventh Amendment Immunity, (p.10 Defendant's Motion to Dismiss..). 2)
Plaintiff's Claim Are Barred By Res Judicata And Collateral Estoppel.(p.l4).
Notice: The issue of vexatious litigant is not listed on the Defendant's Motion to
Dismiss the Complaint, but it was created by Magistrate Judge Newman, proof of
prejudicial.

California Constitution Article 3, Sec. 6(d) That Provides Any Person
Who Is A Resident Of.. California Shall Have Standing To Sue The State
Of California Invalidates And Prevails Over 11th Amendment Immunity
As Basis For The Dismissal Of Order Of December 19,2012
California Constitution Article 3, Sec. 6(d) and the 4 issues, ISSUES I, II, III, & IV in
the Complaint p. 4-6 (EX 257) of May 22, 2019, which issues, are answerable by

Z-

V-J
yes or no# were never determined by any court, so res judicata or collateral
estoppel does not apply. Or vexatious litigation does not apply.
ISSUES IN THE FINDINGS AND RECOMMENDATIONS TO DISMISS THE COMPLAfNT
I. BARROGA'S Claims fails on the same grounds as in the 2012 action, p.3 .
.

FINDINGS AND RECOMMENDATION TO DISMISS ..

Responding I. The Findings and Recommendations in this issue is wrong. In the
2012 action, the case was dismissed by Order of Dec. 19, 2012, EXHIBIT 176,
on the ground of 11th Amendment Immunity, because Defendant PERS being a
state agency cannot be sued.
Again, the new discovered evidence, California Constitution Article 3, Sec.6(d)
proved the dismissal Order of Dec. 19,2012, EXHIBIT 176, was wrong, to quote:
California Constitution Article 3, Sec. 6(d)
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section.

ADDITIONAL AUTHORITIES
STATUTE OF LIMITATION DOES NOT APPLY, to quote:
Cal Code of Civil Proc. Sec. 20181 (new 20164) Duration of obligation, limitation
of actions...

(b)(2) in cases where the system owes money to a member or

beneficiary, the period of limitation shall not apply
In Defendant's Status Report of Sept. 27, 2012, p.3 EXHIBIT 152, Defendant PERS
wanted settlement, to quote:
CalPERS prefers to have settlement conference conducted by someone
other than the district court judge and the magistrate judge assigned to this
\

matter.

3

But Defendant's Attorney does not reply for request for settlement, see EX 313.

RELIEF AVAILABLE ON MOTION FOR NEW TRIAL, authority PERS can be sued.
Cal Code of Civil Proc. Sec. 657 Relief available on motion for new trial,
causes..
4. Newly discovered evidence, material for the party making the
application, which he could not, with reasonable diligence, have discovered
and produced at the trial.
6. Insufficiency of evidence to justify the... decision, or the decision is
against the law.
Notice: The final judgment order of Dec. 19,2012 on 11th Amendment immunity
is against the taw. Cal Constitution Article 3, Sec 6(d).
FEDERAL RULE OF CIVIL PROCEDURE RULE 60, authority that PERS can be sued,
(b) Ground for relief from a final judgment, order, or proceeding
(2) newly discovered evidence, that with reasonable diligence, could not
have been discovered in time to move for a new trial
(4) the judgment is void
The new discovered evidence, California Constitution Article 3, Sec 6 (d) voided
the judgment order, EXHIBIT 176, of 11th Amendment Immunity of Dec. 19, 2012
with no time limitation to file relief.
28 US CODE SEC. 1652 STATE LAWS AS RULES OF DECISION

Refusing To Determine And Interpret The Issues And Controversies
Before Charging Vexatious Litigant Is Plain Obstruction Of Justice
The litigant law: California Code of Civil Proc. Sec. 391:

4-

V

Under the law, the determining factor is whether the causes of action,
controversies, issues of law or facts are determined or interpreted first before
charging vexatious litigant. In these case, the ISSUES I, II, 111 and IV answerable by
yes or no, and California Constitution Article 3, Sec. 6(d) in the Complaint have
never been determined or interpreted by any court. Prior defendant's motions for
dismissals and court judgments had always been aimed for 11th Amendment
immunity, intentionally ignoring and bypassing issues or controversies as required
by above litigant law. Therefore being deemed vexatious litigant is wrong and
fraud.
Under the law, it is not the length of time that determines vexatious litigant.
Only if there is no reasonable probability to prevail over defendant's objections
to the complaint is vexatious litigant imposed. But the California Constitution
Article 3, Sec. 6(d) that provides any resident of California has standing to sue the
state of California prevails over the 11th Amendment Immunity that PERS being
state agency cannot be sued. And any one of the 4 ISSUES I, II, III, and IV, if
determined, prevails in the litigation. To quote prevailing law:
Cal Code of Civ. Pro. Sec.

391.3

(a) Except as provided in subdivision (b), if, after hearing the evidence upon
the motion, the court determines that the plaintiff is a vexatious litigant
and that there is no reasonable probability that the plaintiff will prevail in
the litigation against the.. defendant,.
A judge has the duty to decide the law, pursuant to Cal Code of Civ. Proc. Sec.170,
to quote:
a judge has the duty to decide any proceeding in which he or she is not
disqualified."

?

V'

But Magistrate Judge Newman, in violation of law, refused to interpret,
determine and decide the issues in controversy, after he ordered himself in
usurpation of power to replace assigned Magistrate Judge Edmund Brennan, so
his deeming me a vexatious litigant is plain obstruction of justice. He violated the
Code of Conduct for US Judges, Canon 2:
A JUDGE SHOULD AVOID IMPROPRIETY AND THE APPEARANCE OF
IMPROPRIATY A. Respect for the law. A judge should respect and comply
with law.. B. Outside influence. A judge should not allow family, social,
political, financial, or other relationships to influence conduct or judgment,
Magistrate judge Newman repeatedly rendered judgment without authority in
violation of law, 28 USC 636 (A)(B), see orders EXHIBITS 135,137A, 299. Even the
US Court of Appeals in an order of Apr. 25,2018 cited the violation without

V

authority, see EXHIBIT 329, to quote:
(9th Cir. 1992) holding that absent consent, a federal magistrate judge
lacked authority to a post-judgment decision that has dispositive effect on
the parties.
Not addressing case on the merits because it is pro se is violation of law. A similar
case, in the U.S. Court of Appeals for the Federal Circuit Case 89-1376,90-1080, In
Re Lucio A. Barroga F.2d 44, (See EXHIBIT Order attached to Objection to
Defendant Motion to Dismiss.), is quoted:
We find it troubling that the Commissioner did not address Barroga's
petition on the merits. We find troubling the Commissioner granted a
petition where a counsel was involved... while he denied it here where a

Jo

.

:fc.

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
II

LUCIO A. BARROGA,

12
13
14
15
16

Plaintiff,
v.

No. 2:19-cv-921-MCE-KJN PS
ORDER
(ECF No. 29)

BOARD OF ADMINISTRATION,
CAL.PUBLIC EMPLOYEES’
RETIREMENT SYSTEM,
Defendant.

17

18

On September 9, 2019 the magistrate judge filed findings and recommendations (ECF No.

19

29), which were served on the parties and which contained notice that any objections to the

20

findings and recommendations were to be filed within fourteen (14) days. On September 23,

21

2019, plaintiff filed objections to the findings and recommendations (ECF No. 31), which have

22

been considered by the court.

23

This Court reviews dc novo those portions of the proposed findings of fact to which an

24

objection has been made. 28 U.S.C. § 636(b)(1); McDonnell Douglas Corp. v, Commodore

25

Business Machines. 656 F,2d 1309, 1313 (9th Cir. 1981); see also Dawson v. Marshall. 561 F.3d

26

930, 932 (9th Cir. 2009). As to any portion of the proposed findings of fact to which no objection

27

has been made, the court assumes its correctness and decides the matter on the applicable law.

28

Sec Qrand v. United States. 602 F.2d 207. 208 (9th Cir. 1979). The magistrate judge’s

*

conclusions of law are reviewed dc novo. See Britt v. Simi Valiev Unified School Dist.. 708 F.2d
2

452, 454 (9th Cir. 1983).

3

The Court has reviewed the applicable legal standards and, good cause appearing,

4

concludes that it is appropriate to adopt the findings and recommendations in full. Accordingly,

5

IT IS HEREBY ORDERED that:

6

1. The findings and recommendations (ECF No. 29) are ADOPTED in full;

7

2. Defendant’s Motion to Dismiss (ECF No. 20) is GRANTED;

8

3. Defendant’s Motion to Declare Plaintiff Vexatious (ECF No. 21) is GRANTED in part

9

and DENIED in part;

10

4. Plaintiff is hereby DECLARED a vexatious litigant; and

i1

5. The Court ISSUES a pre-filing order as described in Section II.D. of the Magistrate

12

Judge’s findings and recommendations; and

13

6. The Clerk of the Court is directed to CLOSE this case.

14

IT IS SO ORDERED.

15

Dated: September 30, 2019

16

17

MORRISON C. ENGLAND. JR V \
UNITED STATES DISTRICTnUDGE

18
19
20
21
22
23
24
25
26
27
28
2

LUCIO A. BARROGA
P.O. BOX 2516
LONG BEACH, CA 90801
Tei 562-243 -1024

UNITED STATES COURT OF APPEALS FOR THE 9TH CIRCUIT
.

LUCIO A. BARROGA,

!.
Plaintiff-Appellant

V.
BOARD OF ADMINISTRATION, CALIFORNIA
PUBLIC EMPLOYEES' RETIREMENT SYSTEM (PERS),
*____________________ _ Defendant-Appellee

NO

[

! CASE NO. 2-19CV 00921
! (Sacramento District Court)
! MOTION FOR RELIEF FROM .
I ORDER OF SEPT. 30, 2019__

MEMORANDUM OF POINTS AND AUTHORITIES
MOTION FOR RELIEF FROM DISTRICT COURT ORDER OF SEPT. 30, 2019
ADPOPTING IN FULL FINDINGS AND RECOMMENDATIONS AND GRANTING
DEFENDANT'S MOTION TO DISMISS
Because the ORDER of Sept, 30,2019 adopted in full the Findings and
Recommendations, therefore the Plaintiff's OBJECTIONS TO THE FINDINGS AND
RECOMMENDATIONS of Sept. 20, 2019 EX 388 also answer the ORDER of Sept.
30, 2019, Please read EX. 388. The fact that the ORDER of Sept. 30, 2019 blindly adopted a wrong Findings and
Recommendation and did not consider the merits of Plaintiff s OBJECTIONS TO
THE FINDINGS AND RECOMMEBDATIIONS of Sept. 20, 2019, the judgment Is
prejudicial.
FACTS
After reaching 50 year old in April 1979 and retireble, I submitted an
application for retirement pensions from previous services with the City of

J

El Segundo, and later I went to Sacramento PERS office to follow up application.
PERS offered me two choices: 1) to receive a monthly pension of $135, or 2) as
alternative, to receive a lump sum of my member contributions (approx. 7% of
salaries), but the employer's contributions on my behalf (approx. 7.75% of salaries
under Gov't Code Sec. 20750.1 [new 20795]), will remain with PERS. I received
approximately $10,000 of my accumulated member contributions, with the
employer's contributions on my behalf remaining in deposit with PERS.
Later in some years, I requested that the offered monthly pension shall pay and
redeposit for the withdrawn member contributions as a loan which PERS
maliciously omitted to inform the monthly pension can redeposit per statute (Cal)
Gov't Code Sec. 20654 (new 20750) Redeposit of Withdrawals, and when the loan
or withdrawal is fully paid with interest, then monthly pension will start to me. But
PERS claimed the employer's contributions which have remained with PERS are NOT
"normal contributions", therefore I ceased to be a member when the member
contributions were withdrawn, and I am not anymore entitled any pension benefits.
I have contended that I am still a PERS member, because the employer's
contributions on my behalf have remained in deposit with PERS and are "normal
contributions" under the laws, and therefore, I am entitled retirement benefits..
ISSUES OR CAUSES OF ACTION
Proof that I am still a PERS member, because the employer's contributions on my
behalf have remained in deposit with PERS, to quote:
Cal Gov't Code Sec. 20390 (new 20340)
Condition of cessation A person ceases to be a member:

z

V..

(b) if he or she is paid his or her "normal contributions
Therefore, if the employer's contributions which have remained in deposit with
PER5 are "normal contributions" then I am still a PERS member.
ISSUE I: ARE THE EMPLOYERS'S CONTRIBUTIONS TO THE RETIREMENT FUND ON
BEHALF OF MEMBERS, "NORMAL CONTRIBUTIONS" UNDER THE NEW DISCOVERED
STATUTE, (CAL) GOV'T CODE SEC. 20691? . (New Issue, different from prior Issues)
(Cal) Gov't Code Sec. 20691 Payment of member normal contributions by
contracting agencies or school employer
Notwithstanding any other provision of law, a contracting agency or school
employer may pay all or a portion of the normal contributions required to be
paid by a member. The payment shall be reported simply as normal
contributions and shall be credited to member accounts.
The employer's contributions are explicit "normal contributions'Vtherefore i am
still a PERS member, entitled retirement benefits.
ISSUE II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF THE
ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF LIFETIME
RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALFIED FOR RETIREMENT
AFTER REACHING 50 YEARS OLD, A VIOLATION OF (CAL) GOV'T CODE SEC. 21203
(NEW 21259)?
Cai) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification for
retirement
Subject to compliance with this part, after a member has qualified as to.
.age and service for retirement for service, nothing shall deprive him or her

3

of the right to retirement allowance as determined under this part.

ISSUE ill : IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN MEMBER
CONTRIBUTIONS AS LOANS A VIOLATION OF PERS'S LOAN LAWS WHICH ALLOW
WITHDRAWALS AS LOANS? OR DISCRIMINATORY?
(Cal) Gov't Code Sec. 20654 (new 20750) Redeposit of withdrawals,
interest..
.. .member may file an election with the board to redeposit in the retirement
fund, in lump sum or by installment payment (1) an amount equal to the
accumulated contributions., .withdrawn, and (2) an amount equal to the
interest. .,and (3) if he or she elects to redeposit in other than one sum,
interest on the unpaid balance at date of election to redeposit.
(Cal) Gov't Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20208.5 (new 20203) Security loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program.
(Cal) Gov't Code Sec. 20201 Secured home loan.
ISSUE IV: CONSTITUTION, AMENDMENT 13 IS VIOLATED. PERS HAS DENIED
PLAINTIFF RETIREMENT BENEFITS DERIVED FROM THE EMPLOYER'S
CONTRIBUTIONS TO THE RETIREMENT FUND ON MY BAHALF, WHICH EMPLOYER'S
CONTRIBUTIONS I HAD WORKED AND TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude .. .shall
exist within the United States,..
New discovery: California Constitution Article 3, Sec. 6 (d)
.(d) Personal Right of Action and Jurisdiction of Courts.

Any person who is a resident of or doing business in the State of California
shall have standing to sue the state of California
If any of the ISSUES is YES, in fact, all are yes, then I am entitled retirement
benefits and the redeposit of the withdrawn member contributions
.

Defendant PERS wanted settlement, see defendant's Status Report Ex 152, but

Attorney did not respond to request for settlement, see EX 294.
357 May 22,2019 filed Case No 19CV 00921 COMPLAINT FOR DECLARATORY
RELIEF UNDER CAL CODE OF CIVIL PROC. SEC. 1062 ON NEW OR SAME ACTION
BASED ON THE SAME FACTS WHICH OVERCOMES RES JUDICATA and SUMMONS E* $5^%
requiring a respond within 21 days. Magistrate Judge Edmund Brennan and
District Judge Troy Nunley were assigned to this case.
Plaintiff did not respond to the complaint.
367 Jun. 11, 2019 Order by Magistrate Judge Newman ordered himself as
Magistrate Judge to replaced assigned Magistrate Judge Edmund Brennan. (This
action is usurpation of power in violation of law.)
Jun 14,2019 My letter to Clerk objecting to Magistrate Judge Newman's
involvement because of prior repeatedly rendering adverse judgment without
authority, see EXs 135,137A, 299.
368 Jun 24, 2019 Request For Entry of Default
370 Jun 21, 2019 Defendant's Request For Extension Of Time To Respond,
374 July 5, 2019 Plaintiff's REQUEST FOR ENTRY OF DEFAULT citing reasons: 1)
FRCP Sec. 55 entry of default, 2) minute order declining entry of default unlawful,

' T

3) Defendant request for extension to respond to the complaint, untimely,
violates FRCP Sec. 6 Extending Time.
381 July 22, 2019 Defendant's MOTION TO DISMISS, giving 2 reasons to dismiss:
1) Eleventh Amendment Immunity, because Defendant PERS being a state agency
cannot be sued.
2} Res Judicata and Collateral Estoppel.
382 Aug 1, 2019 OBJECTION TO DEFENDANT'S MOTION TO DISMISS
Federal Rule of Civ. Proc. Sec. 6 (b) Extension time is cited, shown violated which
is reason for default in untimely Request for Extension of Time to Respond.
For abundance of reasons for Objection to Motion to Dismiss, the issues raised
are answered.
Answering 1): California Constitution Article 3, Sec. 6(d) providing any person
who is a resident of California has standing to sue the state of California prevails
over Eleventh Amendment immunity of ORDER of Dec. 19, 2012 EX 176 because
defendant PERS being a state agency cannot be sued.
Answering 2): Res judicata and collateral estoppel.
Res judicata and collateral estoppel depend on prior determined issues, but the
4 issues in the complaint ISSUE 1, II, 111, IV and California Constitution Article 3,
Sec. (6)(d) were never determined by any court. In fact courts including
Magistrate Judge Newman refused to determine the issues, because they aimed
for 11th Amendment immunity. So without determined issues, there is no basis to
apply for res judicata and collateral estoppel.

6

Aug. 29,2019 Court hearing. Plaintiff argued the ISSUES have never been
determined in court, against charge of vexatious litigant by Magistrate Judge.
387 Sept 9,2019 Magistrate Judge Newman's FINDINGS AND
RECOMMENDATION
VEXATIOUS LITIGANT CHARGE
Other issues raised in Findings and Recommendations:
I. Barroga's claim fails on the same grounds as in the 2012 action, p.3
!). Barroga should be deemed a vexatious litigant, and a pre-filing order should

be imposed, p.3
Barroga's lack of counsel.

388 Sept 20, 2019 OBJECTION TO FINDINGS AND RECOMMENDATIONS
Answering I: The judgment ORDER of Dec. 19,2012 Dismissed the case on the
ground of Eleventh Amendment immunity, because defendant PERS being a state
agency can not be sued.
But California Constitution Article 3, Sec. 6(d) providing any person who is a
resident of California has standing to sue the state of California prevails over lllh
Amendment immunity of the ORDER of Decl9, 2012.

Answering II): Vexatious Litigant Charge:
The litigant law: California Code of Civil Proc. Sec. 391 is quoted:
(1) In the immediately preceding seven-year period has commenced,
prosecuted, or maintained in propria persona at least five litigations other
than in a small claims court that have been (i) finally determined

T

adversely to the person or (ii) unjustifiably permitted to remain pending
at least two years without having been brought to trial or hearing.
(2) After a litigation has been finally determined against the person,
repeatedly re-litigates or attempts to re-litigate, in propria persona, either
(i) the validity of the determination against the same defendant or
defendants as to whom the litigation was finally determined or (ii) the
cause of action, claim, controversy, or any of the issues of fact or law,
determined or concluded by the final determination against the same
defendant or defendants as to whom the litigation was finally
determined.
Under the litigant law, the issues or controversies must first be determined and
interpreted, and only after final determination that there be a charge of vexatious
litigant for repeatedly re-litigating the determined issues.
But the issues in the complaint in controversy, ISSUES I, II, 111 and IV answerable
by yes or no, and the new discovered evidence, California Constitution Article 3,
Sec. 6(d) have never been determined in court. Courts and Magistrate Judge
Newman refused to determine and interpret the law. From the above law,
without prior finally determined issues, there is no basis for charge of vexatious
litigant, so the charge of vexatious litigant is wrong. Please see Plaintiffs
OBJECTIONS TO FINDINGS AND RCOMMENDATiONS of Sept. 20, 2019 EX 388 for
more explanations of wrong to charge of vexatious litigant.
Answering Barroga's lack of counsel. To quote law:
28 US Code Sec. 1654 Appearance personally or by counsel

8

in all courts of the United States the parties may plead and conduct their
own cases personally or by counsel as, by the rules of such courts,
respectively, are permitted to manage and conduct causes therein
Not addressing case on the merits because it is pro se is violation of law. A similar
case, in the U.S. Court of Appeals for the Federal Circuit Case 89-1376,90-1080, In
Re Lucio A. Barroga 904 F.2d 44, (See EXHIBIT 01), is quoted:
We find it troubling that the Commissioner did not address Barroga's
petition on the merits. We find it troubling that the Commissioner granted
a petition where a counsel was involved... while he denied it here where a
pro se was involved. .. we determine, that the Commissioner abused his
discretion,,. IT IS ORDERED THAT: The Commissioners... order is vacated.
Magistrate judge Newman repeatedly rendered judgment without authority in
violation of law, 28 USC 636 (A)(B), see orders EXHIBITS 135,137A, 299. Even the
US Court of Appeals in an order of Apr. 25, 2018 cited the violation without
authority, see EXHIBIT 329, to quote:
(9th Cir. 1992) holding that absent consent, a federal magistrate judge
lacked authority to a post-judgment decision that has dispositive effect on
the parties.
391 Sept 30, 2019 ORDER adopting in full FINDINGS AND RECOMENDATIONS
AND GRANTING DEFENDANTS MOTION TO DISMISS, enumerating:
1. The Findings and Recommendation (ECF No. 29) are ADOPTED in full.
2. Defendant's Motion to Dismiss (ECF 20) is GRANTED
3. Defendant's Motion To Declare Plaintiff Vexatious (ECF No. 21) is GRANTED in
part and DENIED in part.

7

4. Plaintiff is hereby DECLARED a vexatious litigant, and
5. The court ISSUES a pre-filing order as described in Section II D of the
Magistrate Judge's Findings and Recommendations
6. The Clerk of the Court is directed to CLOSED this case.
IT IS SO ORDERED, Signed MORRISON C. ENGLAND JR. United States District Judge

PLAINTIFF'S OBJECTIONS TO ORDER OF SEPT. 30, 2019
Answering 1. The ORDER adopting in full Findings and Recommendations is wrong
because it is not consistent with facts and law. See ARGUMENTS below.
Answering 2. The ORDER granting the Defendant's Motion to Dismiss is wrong
because it is not consistent with facts and laws.
Answering 3,4,5. The vexatious litigant charge is wrong because it is not based
on facts and laws. This issue of vexatious litigant charge is well answered in the
Plaintiff's OBJECTIONS TO THE FINDING AND RECOMMENATIONS of Sept. 20,
2019, see EX 388, but the ORDER of Sept. 30, failed to consider the merits of the
OBJECTIONS, thus the judgment is prejudicial.

ARGUMENTS:
Again, because the ORDER of September 30, 2019 by Judge England adopted in
full the Finding and Recommendation of Sept. 9, 2019, therefore Plaintiff's
Objection to Findings and Recommendations of Sept 20,2019 answers also the
issues of the ORDER of Sept. 30, 2019. Please see Plaintiff's Objections to Findings
and Recommendations of Sept. 20, 2019 EX 388.

i°

Defendant Cal Public Employees' Retirement System (PERS) depriving me of
benefits derived from the employer's contributions to the retirement fund on my
behalf which remain in deposit with PERS is violation of Fifth Amendment, to
quote:
No person shall be . .deprived of.... property without due process of law..
Violation of Thirteen Amendment, ISSUE IV in the Complaint, to quote:

Section 1. Neither slavery nor involuntary servitude .. .shall exist within the
United States,.
The Request for Extension of Time to Respond to the Complaint was untimely in
violation of FRCP 6(b) and therefore on default, so the subsequent Findings and
Recommendation is therefore on default.
Reprinted is vexatious litigant law, Cal Code Civ. Proc. Sec. 391, to quote:

(b) "Vexatious litigant" means a person who does any of the
following:
(2) After a litigation has been finally determined against the person,
repeatedly re-litigates or attempts to re-litigate, in propria persona, either
(i) the validity of the determination against the same defendant or
defendants as to whom the litigation was finally determined or (ii) the
cause of action, claim, controversy, or any of the issues of fact or law,
determined or concluded by the final determination against the same
defendant or defendants as to whom the litigation was finally
determined.

M

From the above litigant law, because the ISSUES I, II, 111, IV answerable by yes or
no and California Constitution Article 3, Sec 6(d) were never determined and
interpreted by any court, therefore for lack of finally determined issues
repeatedly re-litigated as basis, the charge of vexatious litigant is false and wrong.
And for the same reason, res judicata and collateral estoppel does not apply.
To be declared a VEXATIOUS LITIGANT is wrong and prejudicial.
A judge has the duty to decide issues in controversy, to quote:
Cal Code of Civ. Proc. Sec. 170 decrees that "a judge has the duty to decide
any proceeding in which he or she is not disqualified."
And 28 USC Sec. 1331:
The district courts shall have original jurisdiction of all civil actions arising
under the Constitution, laws, or treaties of the United States
The refusal of Magistrate Judge Newman and the court to determine and
interpret the ISSUES I, II, ill, IV and California Constitution Article 3, Sec. 6(d)
before charge of vexatious litigant is plain obstruction of justice.
Refusal to interpret the law in controversy violates the Code of conduct for U.S.
Judges, to quote:
CANON 2: A judge should avoid impropriety and the appearance of
impropriety
Respect of law. A judge should respect and comply with the law.
Outside influence. A judge should not allow...
Reiterating, California Constitution Article 3, Sec 6(d) which provides any resident
of California has standing to sue the state of California prevails over 11th

Amendment immunity which is the basis of the dismissal ORDER of Dec. 19. 2012,
EX 176, which provides Defendant PERS being a state agency cannot be sued.
Against res judicata, Relief available on trial on new discovered evidence:

Calif Code of Civ. Proc. Sen. 657 New trial, causes,.
1. abuse of discretion...
4. Newly discovered evidence, material for the party making the application,
which he could not, with reasonable diligence, have discovered and . .
produced at the trial.
6. Insufficiency of evidence to justify the.. decision, or the
decision is against the law.
Notice; The final order of Dec. 19, 2012 dismissing by 11th Amendment immunity
is against the prevailing California Constitution Article 3, Sec. 6(d) providing any
resident of California has standing to sue the state of California.
Federal Rule of Appea/Proc

. Sec. 60, to quote:

(b) Grounds for Relief from a Final Judgment, Order, or Proceeding...
for the following reasons:
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial under;
(4) the judgment is void;
Cal Constitution Article 3 Sec.6(d) voided Order of Dec. 19, 2012 on Eleventh
Amendment immunity.
Statute of limitation shall not apply, quote:

(Cal) Gov’t Code Sec. 20181 (new 20164)

(3 ,

Duration of obligation; limitation of actions
(b)(2) In cases where the system owes money to a member or beneficiary, the
period of [imitation shall not apply.
Anybody can represent himself personally in any court per 28 USC Sec. 1654. Not
considering pro se on the merit violates the law, See In Re Lucio A. Barrage 904
F,2d 426 (Fed. Cir. 1990) US Court of Appeal for Federal Circuit
Defendant PERS wanted settlement, see Defendant's Status Report, EX 152, but
Attorney did not respond for request for settlement, see EX 294.
RELIEF SOUGHT:
From the foregoing, the ORDER of September 30,2019 by US District Judge
Morrison England is wrong and should be reversed.
Therefore Defendant Board of Administration, PERS should pay Plaintiff Barroga
the accumulated pension in the amount of $3,565,573.45 up to December 2018
and a monthly pension of $6,192.39 starting January 2019, accruing and
accumulating. See EXHI8IT 34. (Calculation of pension benefits.)
Date: October 2 £, 2019

Respectfully submitted:
^lucio A. Barfoga

*

Attached: EXHIBITS numbered at the right bottom of first page of documents.

/ 4-

19-17418
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

LUCIO A. BARROGA,
Plaintiff and Appellant,
v.
BOARD OF ADMINISTRATION, CAL
PUBLIC EMPLOYEES* RETIREMENT
SYSTEM,
Defendant and Appellee.
On Appeal from the United States District Court
for the Eastern District of California
No. 2:19-CV-00921 -MCE-KJN
Kendall J. Newman, Judge
APPELLEE’S BRIEF
Xavier Becerra
Attorney General of California
Cheryl L Feiner
Senior Assistant Attorney General
Gregory D. Brown
Darrell W. Spence
Supervising Deputy Attorney General
Brenda A. Ray
Deputy Attorney General
State Bar No. 164564
13001 Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 210-7896
Fax: (916)324-5567
Email: Brenda.Ray@doj.ca.gov
Attorneysfor Defendant-Appellee Public
Employees' Retirement System

TABLE OF CONTENT
Page
Introduction.................
Jurisdictional Statement

1
3

Issues Presented...........
Statement of the Facts...
Statement of the Case ...

3
3

13
15
17

Summary of Argument.
Standard of Review......
Argument....................
I.

II.

The District Court Properly Dismissed the Complaint
Because CalPERS Is Entitled to Eleventh Amendment
Immunity...................................................................

17

A.

Standard of Review...........................................

17

B.

CalPERS is Entitled to Eleventh Amendment
Immunity..........................................................

18

The Dismissal May Also Be Affirmed on the Basis of
Res judicata...................................... .........................

21

A.
B.

III.

17

Standard of Review......................................

21

The Judgment May Also Be Affirmed On the
Additional Ground that it is Barred by Res judicata.... 22
The District Court Rightfully Declared Barroga a
Vexatious Litigant and Issued a Pre-Filing Order.........
28
A.
Legal Standards...................................................
29
1.
The district courts have inherent power to
regulate abusive litigants...........................
29
2.
The Eastern District Court has adopted
California’s vexatious litigant provisions ...
30
3.

The district court’s authority to issue a pre­
filing order................................................
l

30

V-

INTRODUCTION
In the late 1970s, plaintiff/appellant Lucio Barroga (Barroga) retired
from government service and elected to withdraw his employee retirement
contributions from defendant/appellee CalPERS (CalPERS) in a lump sum
rather than collect a monthly pension benefit. Nearly ten years later, Barroga
sought to recontribute his withdrawn contributions and have CalPERS grant
him a monthly pension benefit. Following an administrative hearing,
CalPERS determined that Barroga was not entitled to redeposit withdrawn
contributions in order to obtain a CalPERS pension. Barroga appealed this
administrative decision through the California state court system and the
case reached a final determination upholding the administrative decision in
1994. Notwithstanding that final determination, Barroga has sought to re­
litigate his claim for CalPERS benefits numerous times over the past 25
years before the California Superior Court for the County of Los Angeles,
the California Court of Appeal, the California Supreme Court, the United
States District Court for the Central and Eastern Districts of California, the
United States Court of Appeals for the Ninth Circuit, and the United States
Supreme Court.
This instant lawsuit arises from Barroga’s attempt to re-litigate the
matter, once again, before the United States District Court for the Eastern
1

District of California. The district court correctly dismissed the matter
because CalPERS is entitled to immunity under the Eleventh Amendment.
Further, the district court’s dismissal may also be affirmed on the alternative
grounds, not reached by the district court but fully supported by the record,
that Barroga’s case is barred by the doctrine of res judicata. Indeed, this
lawsuit is Barroga’s twenty-second attempt to re-litigate his claim against
CalPERS for pension benefits, which was fully and finally adjudicated in
1994.
The district court also appropriately declared Barroga to be a vexatious
litigant and imposed a pre-filing order, finding that his litigation history
which includes twenty-one separate lawsuits over the past 25 years
attempting to re-litigate his claim against CalPERS for pension benefits, and
two vexatious litigant orders previously issued against him by the California
Superior Court and the Central District of California ~ demonstrates a
pattern of frivolous, duplicative, and harassing complaints and motions.
Barroga has made no showing that the district court abused its discretion in
declaring him a vexatious litigant or subjecting him to a pre-filing order.
For these reasons, this Court should affirm the judgment of the district
court.

2

/

JURISDICTIONAL STATEMENT
The district court had federal question jurisdiction under 28 U.S.C. §
1331. Barroga appeals from a final judgment following an order granting
CalPERS’ motion to dismiss Barroga’s complaint without leave to amend.
Appellee’s Suppl. Excerpts of Record (SER) 1108-1109. Barroga timely
filed a notice of appeal on October 24, 2019. SER 1285-1286; Fed. R. App.
4(a)(1)(A). This Court has appellate jurisdiction under 28 U.S.C. § 1291.
ISSUES PRESENTED
1.

Whether the district court properly dismissed the complaint

because CalPERS is entitled to Eleventh Amendment immunity.
2.

Whether the district court’s dismissal of Barroga’s complaint

should be affirmed on the alternative ground that Barroga’s claims are
barred by res judicata.
3.

Whether the district court abused its discretion when it declared

Barroga a vexatious litigant and issued a pre-filing order.
STATEMENT OF THE FACTS
The City of El Segundo employed Barroga from 1969 to 1977. See
SER 40. In 1979, Barroga elected to withdraw his employment contributions
from CalPERS. Ibid; SER 47-48. CalPERS remitted to Barroga his
employee contributions of nearly $10,000 and terminated his membership
3

from CalPERS. SER 8,40, 45, 47. Almost ten years later in 1988, Barroga
wrote to CalPERS requesting retirement benefits, asserting that he had
withdrawn his contributions by mistake. SER 8-9,40, 47-48. Barroga
requested that CalPERS treat its remittance of his employee contributions as
a loan. Ibid.
CalPERS denied Barroga’s request, informing him that, because he was
not a current member of CalPERS, he. was not eligible to redeposit his
contributions and that CalPERS’ prior remittance to him could not be treated
as a loan. SER 9, 45-48, 52. Barroga appealed this decision at an
administrative hearing. Ibid; SER 17. An administrative hearing was
conducted on or about May 3, 1990, and an Administrative Law Judge
(ALJ) ruled against Barroga, concluding that he was not entitled to redeposit
withdrawn contributions in order to obtain a CalPERS pension. Ibid. In
November 1990, the Board of Administration of CalPERS adopted the
ALJ’s proposed decision. Ibid.
Barroga first attempted to appeal the administrative decision denying
him CalPERS retirement benefits via a lawsuit for damages against
CalPERS’ Board of Administration for breach of contract and fraud filed in
Los Angeles Superior Court on February 14, 1991. Barroga v. Bd. ofAdmw.
CalPERS, KC003981, SER 17, 37-38. SER 39-43. The Superior Court
4

finding that a litigant has a history of vexatious litigation, and is likely to
“‘continue to abuse the judicial process and harass other parties,’” will
support the imposition of a pre-filing order. Molski, 500 F.3d at 1061 (citing
Safir v. U.S. Lines, Inc., 792 F.2d 19, 24 (2d Cir. 1986)). Barroga’s long
history of repeatedly filing or attempting to file near identical complaints
against CalPERS regarding the same claim to retirement benefits and
requesting the same relief, even after that claim was conclusively and finally
determined against him and the requested relief denied, establishes the
frivolous and vexatious nature of this lawsuit. Molski, 500 F.3d at 1052.
Barroga even persisted after judicial determinations that his claim for
CalPERS retirement benefits was barred by res judicata. SER 1256.
Furthermore, there is no indication that Barroga’s unmeritorious filings
will cease absent a pre-filing order requiring him to obtain leave of court
prior to filing a new lawsuit against CalPERS. One of the substantive factors
considered for issuance of a pre-filing order, and which weighs heavily in
favor of one here, is “whether other sanctions would be adequate to protect
the courts and other parties.” Ringgold-Lockhart v. County, of Los Angeles,
761 F.3d 1057, 1062 (9th Cir. 2014) (quoting Molski, 500 F.3d at 1058).
Given Barroga's extensive record of persistent unmeritorious actions and
filings, merely requiring him to furnish security will not deter him from
41

o

future continued abuse of the judicial process. Hence, a pre-filing order
prohibiting him from filing future actions against CalPERS without first
obtaining leave of court is necessary and the district court properly issued
one.
CONCLUSION
The District Court correctly granted CalPERS’ motion to dismiss
without leave to amend because CalPERS is entitled to immunity under the
Eleventh Amendment. The district court’s dismissal may also be affirmed on
the additional, alternative ground that Barroga’s case is barred by the
doctrine of res judicata. Additionally, the district court properly determined
that Barroga is a vexatious litigant and appropriately issued a pre-filing order
because Barroga has repeatedly filed abusive lawsuits in propria persona
against CalPERS over the past 29 years, seeking to re-litigate his long-ago
adjudicated claim for pension benefits from CalPERS. Accordingly, the
district court’s orders and judgment should be affirmed.

42

V

LUCiOA. BARROGA
P.O. BOX 2516
LONG BEACH, CA 90801
TEL 562-243-1024
UNITED STATES COURT OF APPEALS

LUCIOA. BARROGA,

! NO. 19-17418
Plaintiff - Appellant
V.

! CASE NO. 2-19CV 00921
!

DC SACRAMENTO

BOARD OF ADMINISTRATION , CALIFORNIA

I OBJECTIONS TO APPELLEE'S
PUBLIC EMPLOYEES' RETIREMENT SYSTEM (PERS), ! BRIEF OF MAY 29, 2020
______________________

Defendant-Appellee !___________________

MEMORANDUM OF POINTS AND AUTHORITIES
THIS IS PLAINTIFF-APPELLANT'S OBJECTIONS TO DEFENDANT-APPELLEE'S BRIEF
FACTS on p. 3-4 COMPLAINT FOR DECLARATORY RELIEF.. of May 22, 2019 and on
p. 1-2 MOTION FOR RELIEF FROM ORDER OF SEPT. 30, 2019 of Oct. 22, 2019, Feb.
8, 2020
After reaching 50 year old in April 1979 and retirable, I submitted an application
for retirement pensions from previous services with the City of El Segundo, and
later I went to Sacramento PERS office to follow up application. PERS offered me
two choices: 1) to receive a monthly pension of $135, or 2) as alternative, to receive
a lump sum of my member contributions (approx. 7% of salaries), but the
employer's contributions on my behalf (approx. 7.75% of salaries under Gov't Code
Sec. 20750.1 [new 20795]), will remain with PERS. I received approximately $10,000
of my accumulated member contributions, with the employer's contributions on my

i

behalf remaining in deposit with PERS.
Later in some years, I requested that the offered monthly pension shall pay and
redeposit for the withdrawn member contributions as a loan which PERS
maliciously omitted to inform the monthly pension can redeposit per statute (Cal)
Gov't Code Sec. 20654 (new 20750) Redeposit of Withdrawals, and when the loan
or withdrawal is fully paid with interest, then monthly pension will start to me. But
PERS claimed the employer's contributions which have remained with PERS are NOT
"normal contributions", therefore I ceased to be a member when the member
contributions were withdrawn, and I am not anymore entitled any pension benefits.
I have contended that I am still a PERS member, because the employer's
contributions on my behalf have remained in deposit with PERS and are "normal
contributions" under the laws.
ISSUES on p. 4-6 COMPLAINT FOR DECLARATORY RELIEF .. of May 22,2019 and on
p. 2-5 MOTION FOR RELIEF FROM ORDER OF SEPT. 30, 2019
Proof that I am still a PERS member, became the employer's contributions on mv
behalf have remained in deposit with PERS, to quote:
(Cal) Gov't Code Sec. 20390 (new 20340) Condition of cessation
A person ceases to be a member:
(b) if he or she is paid his or her "normal contributions".
Therefore, IF the employer's contributions which have remained in deposit with
PERS are "normal contributions", then I am still a PERS member.
ISSUE I: ARE THE EMPLOYERS' CONTRIBUTIONS TO THE RETIREMENT FUND ON

2

BEHALF OF MEMBERS, "NORMAL CONTRIBUTIONS" UNDER THE NEW DISCOVERED
STATUTE, (CAL) GOV'T CODE SEC. 20691?
(Cal) Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer
Notwithstanding any other provision of law, a contracting agency or school
employer may pay all or a portion of the normal contributions required to be
paid by a member. . The payment shall be reported simply as normal
contributions and shall be credited to member accounts.
The employer's contributions are explicit "normal contributions", therefore I am still
a PERS member, entitled retirement benefits.
ISSUE II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF THE
ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF LIFETIME
RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALFIED FOR RETIREMENT
AFTER REACHING 50 YEARS OLD, A VIOLATION OF (CAL) GOV'T CODE SEC. 21203
(NEW 21259)?
(Cal) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification for
retirement
Subject to compliance with this part, after a member has qualified as to.
.age and Service for retirement for service, nothing shall deprive him or her
of the right to retirement allowance as determined under this part.
ISSUE III: IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN MEMBER
CONTRIBUTIONS AS LOANS A VIOLATION OF PERS'S LOAN LAWS WHICH ALLOW
WITHDRAWALS AS LOANS? OR DISCRIMINATORY?
(C$!) Gov't Code Sec. 20654 (new 20750) Redeposit of withdrawals,
interest..
. .member may file an election with the board to redeposit in the

3

retirement fund, in lump sum or by installment payment (1) an amount
equal to the accumulated contributions., .withdrawn, and (2) an amount
equal to the interest. .,and (3) if he or she elects to redeposit in other than
one sum, interest on the unpaid balance at date of election to* redeposit.
(Cal) Gov't Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20208.5 (new 20203) Security loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program.
(Cal) Gov't Code Sec. 20201 Secured home loan.
ISSUE IV: CONSTITUTION, AMENDMENT 13 IS VIOLATED. PERS HAS DENIED
PLAINTIFF RETIREMENT BENEFITS DERIVED FROM THE EMPLOYER'S CONTRIBUTION
WHICH HAVE REMAINED IN DEPOSIT WITH PERS, WHICH EMPLOYER'S
CONTRIBUTIONS PLAINTIFF HAD WORKED AND TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude .. .shall
exist within the United States,..
New discovery: California Constitution Article 3, Sec. 6(d)
(d) Personal Right of Action and Jurisdiction of Courts
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California
If any of the ISSUES is YES, in fact, all are yes, then I am entitled retirement benefits
and the redeposit of the withdrawn member contributions..
Sept. 30, 2019 filed DISMISSAL ORDER
Oct. 22, 2019, Feb. 8, 2020 served MOTION FOR RELIEF FROM THE ORDER OF
SEPT. 30, 2019
3 ISSUES PRESENTED ON APPELLEE'S BRIEF OF MAY 29,2020

4-

1. Whether the district court properly dismissed the complaint because CalPERS Is
entitled to Eleventh Amendment immunity, p.3 on APPELLEE'S BRIEF, also (in bold
letters) p.17.
2. Whether the district court's dismissal of Barroga's complaint should be
affirmed on the alternative ground that Barroga's claims are barred by res
judicata, p. 3, also (in bold letters) p. 21,22.
3. Whether the district court abused its discretion when it declared Barroga a
vexatious litigant and issued a pre-filing order, p.3, also (in bold letters) p. 28, 32.
ANSWERING THE 3 ISSUES PRESENTED IN APPELLEE'S BRIEF of May, 29.2020
ANSWERING ISSUE 1.Whether CalPERS is entitled Eleventh Amendment Immunity
because CalPERS being a state agency .cannot be sued.
But California Constitution Article 3, Sec. 6 (d) which provides "any person who is a
resident of or doing business in the State of California shall have standing to sue the
State of California" prevails over Eleventh Amendment Immunity. See p. 12-13
MOTION FOR RELIEF FROM ORDER OF SEPT. 30, 2019 of Oct. 22, 2019, Feb. 8,
2020. APPELLEE'S BRIEF omitted mention of California Constitution Article 3,
Sec.6(d). The dismissal ORDER of Sept. 30, 2019 is wrong and therefore should be
reversed. .
Federal Rule of Civil Proc. Sec. 60 is quoted:
b) Grounds for Relief from a Final Judgment, Order, or Proceeding.
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial..

5

(4) the judgment is void
The California Constitution Article 3, Sec. 6(d) voided the ORDER of Dec. 19,2012
(EXHIBIT 176) on Eleventh Amendment Immunity and likewise, the ORDER of Sept.
30, 2019. And the refusal of the courts to interpret the issues in controversies,
ISSUES I, II, III, IV and California Constitution Article 3, Sec. 6(d) is fraud in the court
and is reason for relief,
.(d) Other Powers to Grant Relief. This rule does not limit a court's power to:
(3) set aside a judgment for fraud on the court.
m complete disregard of rules and laws, such as CANON 2 : " (2) A judge should
hear and decide matters assigned unless disqualified", and against law of judge's
duty to interpret and determine Issues in controversies, judges always dismissed
the complaint on ground of Eleventh Amendment Immunity, which is unlawful,
starting in the p.5 ORDER of Dec. 8,1999, EX 16, see COMPLAINT of May 22,
2019. For unlawful actions,, to quote 5 U.S. Code § 706.Scope of review:
(2) hold unlawful and set aside agefity??cfio? ■ [Tmcfings. and conclusions
found to be—
(A) an abuse of discretion,
(B) contrary to constitutional right,. (Calif. Constituion Article 3, Sec. 6(d)).
(D) without observance of procedure required by law;
ANSWERING ISSUE 2: Whether Barroga's claims are barred by res judicata
The courts refused to interpret the issues in controversies, ISSUE I, II, III & IV and
California Constitution Article 3, Sec. 6(d) answerable by Yes or No, therefore there
is no basis to apply res judicata, and Barroga's claims are NOT therefore barred by
res judicata. The judges' refusal to interpret or decide the issues or laws in

£

controversies violated laws.
Cal Code of Civ. Proc. Sec. 170 decrees that "a judge has the duty to decide any
proceeding in which he or she is not disqualified."
CODE OF CONDUCT FOR UNITED STATES JUDGES
CANON 2: A JUDGE SHOULD AVOID IMPROPRIETY...
A. Respect for Law. A judge should respect and comply with the law
CANON 3: A JUDGE SHOULD PERFORM THE DUTIES OF THE OFFICE FAIRLY,
IMPARTIALLY AND DILIGENTLY
(2) A judge should hear and decide matters assigned, unless disqualified,
and should maintain order and decorum in all judicial proceedings
The refusal of the judges to interpret the laws or issues in controversies such as
ISSUES I, II, III & IV and California Constitution Article 3, Sec. 6(d) answerable by
Yes or No violated laws and is plain obstruction of justice and prejudicial. For
unlawful refusal to determine laws, see 5 U.S. Code § 706.Scope of review cited
above.
See p.12-13 MOTION FOR RELIEF FROM THE ORDER OF SEPT. 30,2019 of Oct. 22,
2019, Feb. 8, 2020.

ANSWERING ISSUE 3: Whether Barroga is a vexatious litigant.
The vexatious litigant law California Code of Civil Proc. Sec. 391, to quote:
b) "Vexatious litigant" means a person who does any of the following:

7

(1) In the immediately preceding seven-year period has commenced,
prosecuted, or maintained in propria persona at least five litigations other
than in a small claims court that have been (i) finally determined adversely
to the person or (ii) unjustifiably permitted to remain pending at least two
years without having been brought to trial or hearing.
(2) After a litigation has been finally determined against the person,
repeatedly relitigates or attempts to relitigate, in propria persona, either (i)
the validity of the determination against the same defendant or defendants
as to whom the litigation was finally determined or (ii) the cause of action,
claim, controversy, or any of the issues of fact or law, determined or
concluded by the final determination against the same defendant or
defendants as to whom the litigation was finally determined.
(3) In any litigation while acting in propria persona, repeatedly files
unmeritorious motions, pleadings, or other papers, conducts unnecessary
discovery, or engages in other tactics that are frivolous or solely intended
to cause unnecessary delay.
From the above litigant law, because the ISSUES I, II, III, IV and California
Constitution Article 3, Sec. 6(d) answerable by yes or no were never determined
and interpreted by any court, therefore for lack of finally determined issues
repeatedly re-litigated as basis, the charge of vexatious litigant is false and wrong.
See p. 11-12 MOTION FOR RELIEF FROM THE ORDER OF SEPT. 30,2019 of Oct. 22,
2019, Feb. 8, 2020.
Again, for the same reasons as preceeding ANSWERING ISSUE 2, the refusal of the
judges to interpret the laws or issues in controversies such as ISSUES I, II, III & IV
and California Constitution Article 3, Sec. 6(d) answerable by Yes or No violated
laws and is plain obstruction of justice and prejudicial.
The above cited violated laws regarding refusal of judges to interpret laws
or issues in controversies in ANSWERING ISSUES 1 & 2 also e^apply here

8

to ANSWERING ISSUE 3. Therefore, the charge of vexatious litigant is
false and wrong and unlawful. For unlawful refusal of judges to determine laws
or issues in controversies, 5 U.S. Code § 706.Scope of review is cited again:
(2) hold unlawful and set aside^A^^fincifngs, and
conclusions
found to be—
(A) an abuse of discretion,
(B) contrary to constitutional right,. (Calif. Constituion Article 3, Sec. 6(d)).
(D) without observance of procedure required by law;
Calif. Gov't Code Sec. 20164 is quoted:
(b)(2) In cases where this system owes money to a member or beneficiary,
the period of limitations shall not apply.
OTICE: Defendant PERS wanted settlement, see Defendant Status Report, Exhibit
152, but attorney did not respond for request for settlement, see Exhibit 294.
From the foregoing, the dismissal ORDER of September 30, 2019 by U.S. District
Judge Morrison England is wrong and should be reversed or be set aside. And the
MOTION FOR RELIEF FROM ORDER OF SEPT. 30, 2019 should be granted.
Therefore, Defendant Board of Administration, PERS should pay Plaintiff Lucio A.
Barroga the accumulated pension in the amount of $3,565,573.45 up to
December 2018 and a monthly pension of $6,192.39 starting January 2019,
accruing and accumulating. See EXHIBIT 34 (Calculation of pension benefits)
Date: June

fj,2020

spectfuljy submitted:
:^LudioA. Barroga

7

V

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

FEB 23 2021

FOR THE NINTH CIRCUIT
LUCIO A. BARROGA,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-17418

Plaintiff-Appellant,

D.C. No. 2:19-cv-00921 -MCE-KJN

v.
MEMORANDUM"
BOARD OF ADMINISTRATION OF
CALIFORNIA PUBLIC EMPLOYEES’
RETIREMENT SYSTEM,
Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted February 17, 2021**
Before:

FERNANDEZ, BYBEE, and BADE, Circuit Judges.

Lucio A. Barroga appeals pro sc from the district court’s judgment
dismissing his action alleging federal claims related to pension benefits from the
California Public Employees’ Retirement System. We have jurisdiction under

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

•V-

28 U.S.C. § 1291. We review de novo a dismissal on the basis of claim preclusion.
Stewart v. U.S. Bancorp, 297 F.3d 953, 956 (9th Cir. 2002). We affirm.
The district court properly dismissed Barroga’s action on the basis of claim
preclusion because the action involved the same primaiy right raised in a prior
administrative proceeding or state court case that resulted in a final judgment on
the merits. See San Diego Police Officers ’ Ass ’n v. San Diego City Emps. ’ Ret.
Sys.9 568 F.3d 725, 734 (9th Cir. 2009) (federal court must follow state’s
preclusion rules to determine effect of a state court judgment; discussing elements
of claim preclusion under California law); see also White v. City ofPasadena, 671
F.3d 918, 927 (9th Cir. 2012) (under California law, a prior administrative decision
is “binding in later civil actions to the same extent as a state court decision if the
administrative proceeding possessed the requisite judicial character” (citation and
internal quotation marks omitted)).
The district court did not abuse its discretion by declaring Barroga a
vexatious litigant and entering a pre-filing review order against him because all of
the requirements for entering a pre-filing review order were met. See RinggoldLockhartv. County ofLos Angeles, 761 F.3d 1057, 1062 (9th Cir. 2014) (setting
forth standard of review and requirements for pre-filing review orders).
We reject as without merit Barroga’s contentions that the judgment is void,
the district court obstructed justice or otherwise acted improperly, and defendant’s

i

19-17418

■w

request for extension of time to respond to the complaint was untimely.
Barroga’s motion for judgment on the pleadings is denied.
AFFIRMED.

D

19-17418

LUCIO A. 8ARROGA
P.G. BOX 2516
LONG BEACH, CA 90801
Tel. 562-243-1024
UNITED STATES COURT OF APPEALS FOR THE 9th CIRCUIT
LUCIO A. BARROGA,

I No. 19-17418
Plaintiff-Appellant

V.
1 Case NO. 2-19CV0921
BOARD OF ADMINISTRATION, CALIFORNIA
! (Sacramento District Court)
rvBuceMPLorEzs aemeMmr system, i eehs t rerrrtON eor nmeAmfrvt?
_________________ Defendant-Appellee

! UNDER FRAP 40

MEMORANDUM OF POINTS AND AUTHORITIES
PETITION FOR REHEARING UNDER FRAP 40 FOR POINT OF LAWS AND FACTS
THAT WERE OVERLOOKED OR MISAPPREHENDED FROM THE MEMORANDUM OF
FEBRUARY 23,2021 BY CIRCUIT JUDGES FERNANDEZ, BYBEE and BADE
A petition for rehearing en banc al$o will be filed.
FRAP Sec. 40;
(2) Contents. The petition must state with particularity each point of law or
fact that the petitioner believes the court has overlooked or
misapprehended and must argue in support of the petition
S U.S. Code § 706.$cope of review
To the extent necessary to decision and when presented, the reviewing court
shall decide all relevant questions of law. Interpret constitutional and statutory
provisions, and determine the meaning or applicability of the terms of an agency
action. The reviewing court shall
(2) hold unlawful and set aside
agency action, findings, and conclusions found to be—
A) arbitrary, capricious, an abuse of discretion, or otherwise not in

I

accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of
statutory right;
(D) without observance of procedure required by law;
In making the foregoing determinations, the court shall review the whole
record or those parts of it cited by a party, and due account shall be taken
of the
of prejudicial error (Emphasis added)
Judicial Notice: The panel judges did not address to "decide ail relevant questions
of law, interpret constitutional and statutory provisions," as mandated by 5 U.S.
Code § 706 Scope of review. The issues of laws are the following:
ISSUE I: Involving (Cal) Gov't Code Sec. 20691. Payment of member normal
contributions p.3.
ISSUE II: Involving (Cal) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after
qualification for retirement p.3.
ISSUE Ml: Involving (Cal) Gov't Code Sec. 20654 (new 20750) Redeposit of
withdrawals, interest.. p.4.
ISSUE IV: Involving Amendment 13, Section 1. Prohibition of slavery p.4.
ISSUE V: Involving Cal Constitution Article 3, Sec. 6 (d) Personal Right of Action to
sue PERS, a California state agency prevails over Amendment 13 immunity, p.4-5.
FACTS:
For previous services with the City of El Segundo, 1% of salaries of employee and
also approximately 7% of salaries of employee from employer were contributed
to the retirement fund with Cal Public Employees' Retirement System, (PERS).
The employee's contributions were withdrawn, but the employer's contributions
on my behalf have remained in deposit with PERS.
ISSUES in the p.2-5 MOTION FOR RELIEF FROM THE ORDER OF SEPT. 30,2019

2.

V,

Proof that I am still a PERS member, because the employer's contributions on my
behalf have remained in deposit with PERS, to quote:
(Cal) Gov't Code Sec. 20390 (new 20340) Condition of cessation
A person ceases to be a member: . .
(b) if he or she is paid his or her "normal contributions".
Therefore, IF the employer's contributions which have remained in deposit with
PERS are "normal contributions", then I am still a PERS member.
ISSUE I: ARE THE EMPLOYERS' CONTRIBUTIONS TO THE RETIREMENT FUND ON
BEHALF OF MEMBERS, "NORMAL CONTRIBUTIONS" UNDER STATUTE, (CAL) GOV'T
CODE SEC. 20691?
(Cal) Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer.
Notwithstanding any other provision of law, a contracting agency or school
employer may pay all or a portion of the normal contributions required to be
paid by a member. The payment shall be reported simply as normal
contributions and shall be credited to member accounts.
The employer's contributions are explicit "normal contributions", therefore I am
still a PERS member, entitled retirement benefits.

ISSUE II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF THE
ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF LIFETIME
RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALFIED FOR RETIREMENT
AFTER REACHING 50 YEARS OLD, A VIOLATION OF (CAL) GOV'T CODE SEC. 21203
(NEW 21259)?
(Cal) Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification for
retirement

3

'v..

Subject to compliance with this part, after a member has qualified as to.
.age and service for retirement for service, nothing shall deprive him or her
of the right to retirement allowance as determined under this part.
ISSUE III: IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN MEMBER
CONTRIBUTIONS AS LOANS A VIOLATION OF PERS'S LOAN LAWS WHICH ALLOW
WITHDRAWALS AS LOANS? OR DISCRIMINATORY?
(Cal) Gov't Code Sec. 20654 (new 20750) Redeposit of withdrawals, interest.
. .member may file an election with the board to redeposit in the retirement
fund, in lump sum or by installment payment (1) an amount equal to the
accumulated contributions., .withdrawn, and (2) an amount equal to the
interest. .,and (3) if he or she elects to redeposit in other than one sum,
interest on the unpaid balance at date of election to redeposit.
(Cal) Gov't Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20208.5 (new 20203) Security loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program.
(Cal) Gov't Code Sec. 20201 Secured home loan.

ISSUE IV: AMENDMENT 13, PROHIBITION OF SLAVERY, IS VIOLATED. PERS HAS
DENIED PLAINTIFF RETIREMENT BENEFITS DERIVED FROM THE EMPLOYER'S
CONTRIBUTIONS TO THE RETIREMENT FUND ON MY BAHALF, WHICH EMPLOYER'S
CONTRIBUTIONS I HAD WORKED AND TOILED FOR, to quote:
Amendment 13, Section 1. Neither slavery nor involuntary servitude.. .shall
exist within the United States,..
ISSUE V: California Constitution Article 3, Sec. 6 (d)
(d) Personal Right of Action and Jurisdiction of Courts.

Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section,.
Cal Constitution Article 3, Sec. 6(d) prevails over Eleventh Amendment Immunity
that Defendant PERS being a state agency is immune from being sued, which
Eleventh Amendment immunity is basis for the dismissal of the complaint.

If any of the ISSUES is YES, in fact, all are yes, then I am entitled retirement benefits
and the redeposit of the withdrawn member contributions.
The MEMORANDUM of Feb. 23, 2021 is quoted:
The district court properly dismissed Barroga's action on the basis of claim
preclusion because the action involved the same primary right raised in a
prior administrative proceeding or state court case that resulted on a final
judgment on the merit.
The MEMORANDUM regarding claim preclusion, overlooked and misapprehended
the facts that the prior administrative law judge and state judges were wrong in
deciding that I ceased to be a member when I withdraw the accumulated member
contributions and therefore I am not anymore entitled retirement benefits from
the employer's contributions remaining in deposit with PERS. See wrong
arguments of PERS, which was the basis of prior court dismissal orders, p.2 letter
(EX4) dated Sept 5,1995 by Kayla Gillan, Deputy General Counsel and letter (EX 5)
dated Apr. 18,1996 by Richard H. Koppes, Deputy Executive Officer and General
Counsel. But the MEMORANDUM overlooked that the district court's refusal to
interpret the issues in controversies, ISSUES I, II, III and IV, and (V) Calif
Constitution Article 3 Sec 6(d) answerable by yes or no is unlawful. Please see
above ISSUE I, that I am still a PERS member because the employees'
contributions to the retirement fund on my behalf remain in deposit with PERS

5*

and are "normal contributions". The court's refusal to interpret the issues, ISSUES
I, II, 111 and IV and (V) Calif Constitution Article 3 Sec (6d) in controversies violated
laws:
] Cal Code of Civ. Proc. Sec. 170 decrees that "a judge has the
[
duty to decide any proceeding in which he or she is not disqualified."
CANON 3 CALIFORNIA CODE OF JUDICIAL ETHICS

(1)A judge shall hear and decide all matters assigned to the judge except those in
which he or she is disqualified.
The panel judges did not address to determine and interfret the issues of laws as
mandated by 5 U.S. Code § 706.Scope of review and other laws cited that could
prove the district court is wrong..
Fedral Rules of Civil Procedure Sec 60
(b) Grounds for Relief from a Final Judgment, Order
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial
(4) the judgment is void;
(6) any other reason that justifies relief.(Note: Cal Constitution Article 3 Sec
6(d) prevails over Eleventh Amendment immunity.)
(d) Other Powers to Grant Relief. This rule does not limit a court's power to;
(2) grant relief., to a defendant who was not personally notified of the
action; or
(3) set aside a judgment for fraud on the court. (Note: Refusal of court to
address and interpret the issues is fraud on the court)
The MEMORANDUM is quoted:
The district court did not abuse its discretion by declaring Barroga a
vexatious litigant..

G

The MEMORANDUM overlooked the fact that plaintiff is not a vexatious litigant
under the law.
California Vexatious Litigant Law, CODE OF CIVIL PROCEDURE SECTION 391:
1) In the immediately preceding seven-year period has commenced,
prosecuted, or maintained in propria persona at least five litigations other
than in a small claims court that have been (i) finally determined adversely
to the person
(2) After a litigation has been finally determined against the person,
repeatedly relitigates or attempts to relitigate, in propria persona, either (i)
the validity of the determination against the same defendant or defendants
as to whom the litigation was finally determined or (ii) the cause of action,
claim, controversy, or any of the issues of fact or law, determined or
concluded by the final determination against the same defendant or
defendants as to whom the litigation was finally determined.
The California vexatious litigant law requires that issues must be first addressed
and finally determined, but judges refused to address and interpret the laws in
dispute so there is no basis for charge of vexatious iitigantThe judge's refusal to
interpret issues in dispute is unlawful, and therefore is abuse of discretion. The
panel judges overlooked the fact that the district court refused to address and
decide the issues of laws in dispute, ISSUES I, II, III and IV and California
Constitution, Article 3, Sec. 6(d) answerable by yes or no, so the district court's
refusal to address and interpret the issues of laws and constitutions is abuse of
discretion for violation of laws: 5 USC Sec. 706 Scope of reviews, See above.
] Cal Code of Civ. Proc. Sec. 170 decrees that "a judge has the
[
duty to decide any proceeding in which he or she is not disqualified."
CANON 3 CALIFORNIA CODE OF JUDICIAL ETHICS

7

(1)A judge shall hear and decide all matters assigned to the judge except
those in which he or she is disqualified.
CODE OF CONDUCT FOR US JUDGES
Canon 2: A Judge Should Avoid impropriety and the Appearance of
Impropriety in all Activities
(A) Respect for Law. A judge should respect and comply with the law ..
(B) Outside Influence. A judge should not allow family, social, political,
financial, or other relationships to influence judicial conduct or judgment
Canon 3: A Judge Should Perform the Duties of the Office Fairly, Impartially and
Diligently
(2) A judge should hear and decide matters assigned, unless disqualified,
A similar case of abuse of discretion for not addressing issues on the merit in:
In Re Lucio A. Barroga, 904 F.2d 44 (Fed.Cir. 1990) (US COURT OF APPEALS FOR
THE FEDERAL CIRCUIT) is quoted:
We find it troubling that the Commissioner did not address Barroga's
petition on the merits. We find it troubling that the Commissioner granted
a petition.. .where counsel was involved while he denied it here where a
pro se was involved. July 13,1989 Order at 2-3. In view of all the
circumstances here, we determine that the Commissioner abused his
discretion. ... Accordingly, IT IS ORDERED THAT: The Commissioner's
September 15,1989 order is vacated."
The MEMORANDUM of Feb. 23,2021 misapprehended or overlooked that the
district court's refusal to interpret and determine the issues in dispute answerable
by yes or no, ISSUES I, II, III and IV and California Constitution Article 3 Sec 6(d) for
any resident of California has standing to sue the state of California, is violation of
laws: 5 USC Sec.706 Scope of review, and the many above other cited laws.

o

V.,

From the foregoing, the district court dismissing the Barroga's action on the basis
of claim preclusion is wrong, because the prior administrative proceeding was
wrong in its decision that I ceased to be a member of PERS when the member
contributions were withdrawn, and the courts wrongly interpreting or refusing
to interpret the issues in dispute is unlawful, so the district court abused its
discretion for declaring Barroga a vexatious litigant, which the panel overlooked or
misapprehended. And the reviewing panel judges did not consider to “ decide all
relevant questions of law, interpret constitutional and statutory provisions" of
the issues as mandated under 5 USC Sec 706, which not consider to decide is
unlawful. Therefore the petition for rehearing should be granted, and set aside the
dismissal order of Sept. 30,2019 and grant the motion for relief.

Date: March

2021

Respectfullvisubmitted:
'COQAACr*j*JUi
r

CIO

p

r if

>*r

roga

I

Attached: 1) MEMORANDUM of Feb. 23,2021
2) Letter (EX4) dated Sept 5,1995 by Kayla Gillan, Deputy General Counsel
3) Letter (EX 5) dated Apr. 18,1996 by Richard H. Koppes, Deputy Executive
Officer and General Counsel
4) In Re Lucio A. Barroga, 904 F.2d 44 (Fed.Cir. 1990) (US COURT OF APPEALS FOR
THE FEDERAL CIRCUIT)
President Obama said: RULE OF LAW
Justice Brett Kavanaugh, at the senate confirmation hearing, said: If you cite the
law, you win; judgment without fear or favor; the RULE OF LAW

?

\

1
2
3
4
5
6

Kamala D. Harris. State Bar No. 146672
Attorney General of California
Niromi w. Pfeiffer, State Bar No. 154216
Supervising Deputy Attorney General
Brenda A. Ray, State Bar No. 164564
Deputy Attorney General
1300 I Street. Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 324-5208
Fax: (916)324-5567
E-mail: Brenda.Rav@doi.ca.uov

7
8

Attorneys for Defendant. Public Employees'
Retirement System

9

IN THE UNITED STATES DISTRICT COURT

10

FOR THE EASTERN DISTRICT OF CALIFORNIA

11
12
13

12 CV 1179 MCE-KJN

LUCIO A. BARROGA,
14
Plaintiff,
15
v.
16
17
18

BOARD OF ADMINISTRATION CAL
PUBLIC EMPLOYEES’ RETIREMENT
SYSTEM,

DEFENDANT CALIFORNIA PUBLIC
EMPLOYEES’ RETIREMENT
SYSTEM’S STATUS REPORT
Date:
Time:
Courtroom:
Judge:

October 4, 2012
10:00 a.m.
25
The Honorable Kendall J.
Newman

Defendant.

19

Action Filed: May 2. 2012

20
21
22
23

Defendant California Public Employees’ Retirement System (CalPERS) submits the
following status report pursuant to the Court’s.May 2, 2012 Order:

24

1.

CalPERS was personally served on August 21,2012.

25

2.

CalPERS knows of no additional party to be joined or served.

2>

CalPERS noticed and filed a motion to dismiss the complaint on September 11, 2012,

26
27

on the grounds that it has immunity under the Eleventh Amendment to the United States

28

Constitution and the suit is barred by res judicata. The matter involves plaintiff s election in 1979
1
Defendant California Public fc.rnplbveesr Retirement System’s Status Report
(\2 CV 1179 MCE-KJN)

\
1

10 withdraw his employment contributions from CalPERS. CalPERS remitted to plaintiff his

2

employee contributions of nearly $10,000 and terminated his membership from CalPERS. Almost
ten years later in 1988, plaintiff wrote to CalPERS requesting retirement benefits, asserting that

4

he had withdrawn his contributions by mistake. Plaintiff requested that CalPERS treat its

5

remittance of his employee contributions as a loan. CalPERS denied plaintiff s request, informing

0

him that, because he was not a current member of CalPERS, he was not eligible to redeposit his

7

contributions and that CalPERS’ remittance to him could not be treated as a loan.

S
9

4.

The court lacks jurisdiction because CalPERS is immune from suit under the

Eleventh Amendment to the United States Constitution.
CalPERS’ motion to dismiss is to be heard on October 18, 2012 at 10:00 a.m. in

10

5.

11

Courtroom 25.

12

6.

In the event CalPERS’ motion to dismiss is granted, no discovery is necessary.

13

7.

Until the Court rules upon CalPERS’ motion to dismiss, a scheduling order is

14

premature.

15

8.

No special procedures are necessary.

16

9.

Tf this matter goes to trial, CalPERS estimates it will take three days.

17

10.

No modifications to the standard pretrial procedures are anticipated.

18

11.

This matter is related to many previous matters filed by plaintiff in other venues, both

19

administrative, state, and federal. Those matters include:

20

• Board of Administration of CalPERS •

21

• Los Angeles Superior Court {case numbers KC0039S1, KC024567, and KC03Q50S),

22

• California District Court of Appeal for the Second Appellate District (case numbers
B077855 and B115924),

23

• California Supreme Court (case numbers S03S365 and S069199),
24

25
26

• United States District Court for the Central District of California (case numbers CV 999457, CV 03-7673, CV 04-06315, CV 06-03696, and CV 09-56),
• United States Court of Appeal for the Ninth Circuit (case numbers 05-55232, 06-56415,
and 09-55595), and

27

• LInited Stales Supreme Court (case number 98-5585).
28

i

DefendaTuTalitornia Public Employees' Retirement System’s Status Report
’(12 CV 1179 MCE-KJN)

's

1
2

12.

plaintiffs claims arc barred by res judicata.
13.

4
5
6

CalPHRS does not anticipate requiring a settlement conference as it believes

CalPERS prefers to have a settlement conference conducted by someone other than

the district court judge and magistrate judge assigned to this matter.
14.

CalPERS knows of no further matters that may add to the just and expeditious

disposition of this matter.

7

Dated: September 27, 2012

Respectfully submitted,

8

Kama la D. Harris
Attorney General of California
Niromi W. Pfeiffer
Supervising Deputy Attorney General

9
10
11
12

Brenda a. Ray
Deputy Attorney Genera!
Attorneys for Defendant
Public Employees' Retirement System

13
14

15

SA2012106864
10958893.doc

16
17
18
19
20

21
22
23
24
25

26
27

28
Defendant California Public Emplovees’ Retirement Svstem7s Status Report
(12 CV 1179 MCE-KJN)

To: Xavier Becerra, Attorney General of Californl

$3.35

Niromi Pfeiffer, Superv. Deputy Atty. General
^
Brenda A. Ray, Deputy Attorney General
1300 I St. Suite 125

K
3" {Stro55v5ow*F*“^*“
D
S

Sacramento, CA 95814

a (p355T^
IT 5

$q7*9

■oatAQO oni

r-^

From: Lucio A, Barroga

^3.84

a

P.O.Box 2516 Long Beach,

(____

*—
\—

5 WWM

CA 90801

Gfy.

Sir/Madam:
RE: Case No. 12CV01179 MCE-KJN BARROGA V. BRD. OF ADMINISTRA., PERS
I request you implement settlement which Defendant PERS wanted on this case,
as shown on the DEFENDANT PERS'S STATUS REPORT served Sept 27, 2012, to
quote:
13.CalPERS prefers to have a settlement conference conducted by someone
other than the district court judge and the magistrate judge assigned to this
mtter.
Defendant PERS just pays me the present claim in the complaint, and that settles
everything.
Your earliest favorable reply is appreciated.
Date: August/'^, 2017

incerely<
l^cio a. narroga0AJlcr^>
f

Attached: DEFENDANT PERS'S STATUS REPORT served Sept. 27, 2012

n *
re *
-f x

< x

g 5

3 V> O i
&i
o to in
9
^33

3 »

0^*0

Q>

X

=3

C X
3 x

re x
3 x
x

0) X

s.
Is
1

i

3 £U tA l 1
-h CTT3 OO CL
O ®_ in g ©

X

re x

X

<■

X

O X

c£ 3x
Q»

*

r*

X

3 x

o •o o
bi o r
— in 3

5

ro
o>

o

a> 3“ o c
I © 3 r*
CD
o

-Sre

8^0

o

>° C

3

CO

">

"N.

T25" SS&*
€
~o ~i re
w

J

S
3

lO

^

o

a,

COJ 1/)^
cats ^ to
;
-OTZ fl) _
C/> — 3 IA

>< a.
qj

®

is* •<:

2o l? —.s. — oc~i
o
c
3
is
o
1

*

^
3 in ID -5
a> <n re re
o_
■< re
ic
U ffi

o in a».
0)02

gT;a

CL — 3
01 C
Ort3
^ Vi a
re re ©
i — ft in re
CD r* & *X “5

<

?5

1
Q,
(sj-O—
Wl/lffi
N) • re
i o

re
.x
CU
rt
X
in

— 03C03 0i

—•

•<

—
o
W
03
'O
-J

2 22

t/>

—

o n Q,
o ;c
3a, ©
-+ - -i
ffi Q. ”J

QJ (/I

o'

3 3"

re

slOHJX ©
O® — C "D —
0~0
• to

Q.<-* ft
Qj CD • m —

ss?

l. —*
I’X.
u
'• W

OJ

—

r

tA

3

V>

•

O

!•

5:
;:g^g S3S,
.

►- — on
<
3»
\ re tn
cn —
Ml O
ro ©
ioa>- o<
to
ro
CO X
Q)
—
ro re
<
-EL

5
<ji
CD O

o

*A
CJ

<

O to
— a*< —

re

\
«■
US

s x a

'

CO o
OO

1-

o* *

o-

' f x-8

TO

O C. t
”} C t
— O I
tJ
1;

oor o
CO re c-

O1
O *4

• o

oil
to
re O

< Q.OZO

CD

o ■
£

re

r* —VI
«-»
1/3 0"
I
>0
O

S®
i— cre "5 (tax
to cl in o 3*
re

r> ©
at a,
_
d in to
< re
«n
—
3“ O -k
O 3- i
£ re in
o re
< 7T 1
O * <
3 0 —
C O
3“
re

8 reo
2

i— 3:n
on,—

£

i”»

^ou>

i
onr~
■ ro in i a* co m o
i xjoo
m:>z
o cr>
II Ol o to
o to
ox
CO
CD ro
zr
□3 m
I -J
r- 3*
I ^

<o

I'

CJX
PO

o
•

lO

*o~n
n — 3

r. o,

re —1

r—
r- oo

i5

■

•
•

•

w

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 26 2021
MOLLY C. DWYER. CLERK
US COURT OF APPEALS

LUCIO A. BARROGA,
Plaintiff-Appellant,
v.
BOARD OF ADMINISTRATION OF
CALIFORNIA PUBLIC EMPLOYEES'
RETIREMENT SYSTEM,

No. 19-17418
D.C. No. 2:19-cv-00921-MCE-KJN
Eastern District of California,
Sacramento
ORDER

Do fenclant-Appellee.
Before:

FERNANDEZ, BYBEE. and BADE, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full conn has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Barroga’s petition for panel rehearing (Docket Entry No. 22) and petition for
rehearing on banc (Docket Entry No. 23) are denied.
No further filings will be entertained in this closed case.

p* *

%
&

I
i »•

i

Legal Office
P.O.Box 942707
Sacramento. CA 94229-2707
Telecommunications Device for the Deaf - (916) 326-3240
(916) 326-3673
Telecopier. (916) 326-3659

Aprt 18. 1996

I

I
I
I

Lucto Barroga
P.O. Box 662006
Mar Vista, CA. SQ066

I

Re:

\

In the Matter of the Application of Lucto A. Barroga for Cancellation
of Refund and Redepoft of Contributions Withdrawn from PERS,
LUCIO A. BARROGA, Respondent, and CITY OF EL SEGUNOO,
Respondent Case No. 576-58-5765, OAH No. L-49409

\

Dear Mr. Barroga:

I.

i

I am in receipt of your letter dated February 8,1996- I have reviewed your letter, the
authority that you cite and the attachments. In reviewing the applicable law, I must
inform you that employer contributions are not considered "normal contributions"
under the law. I have also read the correspondence from Deputy General Counsel,
Kayla J. Giffan, and Senior Staff .Counsel, F. Javier Piasenda, and I agree with their
interpretation and explanations provided regarding "normal contributions".
In 1979, you requested a lump sum payment at retirement and you withdrew your
"normal contributions" (i.e. those contributions that you paid into the system). The
contrfoutions made by an employer are not "normal contributions" and cannot be
withdrawn from PERS. Also, the employer contributions do not remain on account of
a member when they withdraw their normal contributions, as you did. In response to
your election to receive a lump sum payment, PERS provided you a refund and
informed you that your membership in the retirement system was terminated. It was
not until approximately ten years later that you claimed that a mistake occurred and
that you wished to have your refund to be considered a loan and be redeposited with
PERS. This was not an option then or now. Redepositing a refund is not an option
unless you become a PERS member again, and redeposit while you are a PERS
member. You have never become a PERS member since your membership wafe
terminated in 1979, consequently, you have never had the option of redepositing your
refund.
It is unfortunate that I cannot provide you with a more favorable response, however,
the Public Employees' Retirement Law does not allow PERS to do what you request. I
do not believe that I nor anyone else at PERS can assist you anymore on this ma^er.

1

•)

l
I
i:
i
i

Ludo Barroga

■
^

RICHARD H. KOPPES
Deputy Executive Officer and General Counsel

; *

-2-

April 18,1996

l also note that previous correspondence to you from the legal office suggest that you
seek the assistance of an attorney to review your case. I urge you to do the same,
although I believe that their review of this matter will provide you with a similar
interpretation of the law.
Very truly yours.
------------

cc:

Kbyte J. Gillan

I
1I
q

ai*i

i
i
\
.\

I

1

1
2
3
4

5
6
7
8

Kamala D. Harris, State Bar No. 146672
Attorney General of California
Niromi W. Pfeiffer, State Bar No. 154216
Supervising Deputy Attorney General
Brenda A. Ray, State Bar No. 164564
Deputy Attorney General
1300 I Street, Suite 125
P.O.Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 324-5208
Fax: (916)324-5567
E-mail: Brenda.Rav@doi .ca.gov
Attorney’s for Defendant, Public Employees
Retirement System

9

IN THE UNITED STATES DISTRICT COURT

10

FOR THE EASTERN DISTRICT OF CALIFORNIA

11
12
13

12 CV 1179 MCE-KJN

LUCIO A. BARROGA,
14
15

v.

Plaintiff, DEFENDANT CALIFORNIA PUBLIC
EMPLOYEES’ RETIREMENT
SYSTEM’S STATUS REPORT

16

17
18

BOARD OF ADMINISTRATION CAL
PUBLIC EMPLOYEES’ RETIREMENT
SYSTEM,
Defendant.

19

Date:
Time:
Courtroom:
Judge:

October 4, 2012
10:00 a.m.
25
The Honorable Kendall J.
Newman

Action Filed: May 2, 2012

20

21
22
23

Defendant California Public Employees’ Retirement System (CalPERS) submits the
following status report pursuant to the Court’s May 2,2012 Order:

24

1.

CalPERS was personally served on August 21, 2012.

25

2.

CalPERS knows of no additional party to be joined or served.

26

3.

27
28

CalPERS noticed and filed a motion to dismiss the complaint on September 11, 2012,

on the grounds that it has immunity under the Eleventh Amendment to the United States
Constitution and the suit is barred by res'judicata. The matter involves plaintiffs election in 1979
1
Detendant California Public Employees^'Retirement
mCe?kjn)

\

to withdraw his employment contributions from CalPERS. CaiPERS remitted to plaintiff his

1

. Almost
em ployee contributions of nearly SI 0,000 and terminated his membership from CalPERS
ten years later in 1988, plaintiff wrote to CalPERS requesting retirement benefits, asserting that

2
3

he had withdrawn his contributions by mistake. Plaintiff requested that CalPERS treat its

4

remittance of his employee contributions as a loan. CalPERS denied plaintiffs request, informing

5
6

him that, because he was not a current member of CalPERS, he was not eligible to redeposit his

7

contributions and that CalPERS’ remittance to him could not be treated as a loan.

8

9

4.

The court lacks jurisdiction because CalPERS is immune from suit under the

Eleventh Amendment to the United States Constitution.
CalPERS1 motion to dismiss is to be heard on October IS, 2012 at 10:00 a.m. m

10

5.

11

Courtroom 25.

12

6.

In the event CalPERS’ motion to dismiss is granted, no discovery is necessary.

13

7.

Until the Court rules upon CalPERS7 motion to dismiss, a scheduling order is

14

premature.

15

8.

No special procedures are necessary.

16

9.

Tf this matter goes to trial, CalPERS estimates it will take three days.

17

10.

No modifications to the standard pretrial procedures are anticipated.

18

11.

This matter is related to many previous matters filed by plaintiff in other venues, both

19
20

21
22.
23
24

25
26
27

28

administrative, state, and federal. Those matters include:
• Board of Administration of CalPERS
• Los Angeles Superior Court (case numbers RC003981, KC024567, and KC030508),
• California District Court of Appeal for the Second Appellate District (case numbers
B077855 and B115924),
• California Supreme Court (case numbers S038365 and S069199),
. United States District Court for the Central District of California (case numbers CV 999457, CV 03-7673, CV 04-06315, CV 06-03696, and CV 09-56),
• United States Court of Appeal for the Ninth Circuit (case numbers 05 -55232,06-56415,
and 09-55595), and
• United States Supreme Court (case number 98-5585).
2

Deien3anTCaIIfofnTal5u51IcTSiployees ‘ Retirement

12.

1

CalPERS does not anticipate requiring a settlement conference as it believes

plaintiffs claims are barred by res judicata.
13. CalPERS prefers to have a settlement conference conducted by someone other than ^

2

the district court j ttdge andTnagSSejudge assigned to this matter.
14.

5

CalPERS knows of no further matters that may add to the just and expeditious

disposition of this matter.

6
7

Dated: September 27, 2012
8

Kamala D. Harris
Attorney General of California
Niromi W. Pfeiffer
Supervising Deputy Attorney General

9
10

9

11

/
/

12

Brenda A. Ray
Deputy Attorney General
Attorneys for Defendant
Public Employees' Retirement System

13
14
15

Respectfully submitted,

SA2012106864
10958893.doc

16
17
18
19
20
21
22
23
24
25
26
27
28
T35{eHaanrriTHofmn5OTIic Employees' Kenreme.ii

